1
APPENDICES
TABLE OF CONTENTS
Appendix A

- Third Circuit Court Clerk’s covering
letter to the certified copy of the
Court’s Order in the case dated
10/24/2019

Appendix B

Petitioner’s Petition for Panel
Rehearing filed with the Third
Circuit Court of Appeals on
09/23/2019.

Appendix C

Third Circuit Court of Appeals Order
dismissing Petitioners’ case for
alleged “lack of subject matter
jurisdiction” dated 09/11/2019.

Appendix D

Petitioner’s ‘Objections’ Regarding
Admin. Assistant’s Determination
about the Issue of Jurisdiction filed
on 05/06/2019 (without Exhibits).

Appendix E

- Third Circuit of Appeals Opinion and
Judgment dated 05/02/2019 denying
Petitioner’s Writ of Mandamus for
three reasons: 1) It “is closely related
to two civil vases,” 2) “The CVRA
guarantees the victim of federal
crimes a variety of rites” and Shahin
is not a victim of federal crimes, and
3) “Shahin does not challenge the
A-l

r
District Court’s remand order...” at
superscript 1.
Appendix F

Third Circuit Court of Appeal
Admin.
Assistant’s letter about
potential dismissal of the Petitioner’s
appeal due to alleged “jurisdictional
defects” and summery action dated
04/26/2019.

Appendix G

Memorandum Opinion and Order of
the US District Court for the District
dated 03/12/2019
of Delaware
denying Petitioner’s Motion for
Reargument.

Appendix H

Delaware Supreme Court Order da­
ted 02/26/2019 affirming decision of
the DE Superior Court.

Appendix I

Order of the Delaware Superior
Court denying Petitioner’s Motion
for reconsideration dated 07/17/2018.

Appendix J

Petitioner’s Motion for Reconsi­
deration filed at the DE Superior
Court on 06/11/2018.

Appendix K

Order of the Delaware Superior
Court dated 06/06/2018 affirming
decision of the Court of Common
Pleas.
A-2

!

Appendix L

- Petitioner’s Motion for Extension of
Time to File Reply Brief filed in DE
Superior Court on 03/15/2018.

Appendix M

US District Court’s Memorandum
Opinion and Order remanding the
case to the CCP dated 03/13/2018.

Appendix N

Respondent Counsel’s letter to the
DE Superior Court asking for one
day extension to file Answering Brief
due to “excusable negligence” of
3/7/18.

Appendix O

- Petitioner’s ‘Formal Response to the
Presiding Judge’s Correspondence of
April 13, 2017, filed on 05/10/2017.

Appendix P

- Court of Common Pleas Judge’s
harassing and intimidating ‘Rule’
demanding to ‘Show Cause’ dated
04/13/2017.

Appendix Q

- Petitioner’s Motion “Election” for
Initiation of the Process to Transfer
the Case to Federal Court for the
District of DE under 10 Del.C. §1902
and 42 U.S.C. § 1983, filed on
08/19/2016.

Appendix R

- Court of Common Pleas Judge,
Charles W. Welch’s III Order dated
07/19/2016 denying Petitioner’s MoA-3

/

tion to amend his previous judgment
and transfer the case to the US
District Court.
Appendix S

- Petitioner’s
Motion
filed
on
04/21/2016 under provisions of Rules
59(b) and 60(b) of the CCP Rules of
Civil Procedure.

Appendix T

- DE Court of Common Pleas Judge’s
decision of 04/13/2016 granting
Defendant Officer Boney’s Motion to
Dismiss Petitioner’s Complaint.

Appendix U

- Petitioner’s ‘Additional Response to
Defendant’s Motion to Dismiss’ filed
on 12/29/2015.
' P

Appendix V

Petitioner’s
Objections
to
the
Defendant, Dover Police Officer Dale
Boney’s, Motion to Dismiss filed on
09/23/2014.

Appendix X

- Copy of the page from a local
newspaper Delaware State News
dated
10/27/2019
and
issue
advertised by the Citizen’s for a ProBusiness (in Delaware).

A-4

OFFICE OF THE CLERK
UNITED STATES COURT OF APPEALS
FOR THIRD DISTRICT
21400 UNITED STATES COURTHOUSE
601 MARKET STREET
PHILADELPHIA, PA 19106-1790
Website: www.ca3.uscourts.gov
Patricia S. Dodszuweit
TELEPHONE
Clerk
215-597-2995
October 24, 2019
John A. Cerino
United States District Court for the District of Delaware
J. Caleb Boggs Federal Building
844 North King Street
Wilmington, DE 19801
RE:

Nina Shahin v. Dale Boney, et al
Case Number: 19-1829
District Court Case Number: l-17-cv-00413

Dear District Court Clerk,
Enclosed herewith is the certified copy of the order in
the above-captioned case(s). The certified order is
issued in lieu of a formal mandate and is to be treated in
all respects as a mandate.
Counsel are advised of the issuance of the mandate by
copy of this letter. The certified order is also enclosed
showing costs taxes, if any.
Very truly yours,
Patricia S. Dodszuweit, Clerk
Appendix A, page 1

j

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
Nina Shahin,

)

Petitioner-Appellant
v.
CITY OF DOVER AND
OFFICER DALE BONEY,
Appellees,

No. 19-1829

)
)

) also related to Petition for
) Writ of Mandamus
) No. 19-1682
)
)
)

PETITION FOR PANEL REHEARING BASED ON
THE ISSUE OF GROSS ABUSE OF JUDICIAL
DISCRETION, DENIAL OF ACCESS TO JUSTICE
TO A NATIONAL MINORITY AND PRO SE
LITIGANT, DISCRIMINATION AND
CORRUPTION
In Pro Se Representation by Nina Shahin
103 Shinnecock Rd.,
Dover, DE 19904
Tel. No. (302)526-2152
Attorneys for the Appellees: Daniel A. Griffith, Esq
WHITEFORD TAYLOR
& PRESTON
The Renaissance Ctr.
405 North King. St.
Suite 500
Wilmington, DE 19801
(302) 357-3254
Appendix B, page 1

Plaintiff-Appellant thereby files her Petition for Panel
rehearing because of the Court’s gross abuse of judicial
discretion, denial of justice to a national minority
woman and pro se litigant, discrimination and resulting
corruption of the entire judicial process. “Abuse of
Judicial Discretion” is defined as a situation when a
court does not apply the correct law or if it rests its
decision on a clearly erroneous finding of a material fact.
See U.S. v. Rahm, 993 F.2d 1405, 1410 (9th Cir.’?3). A
court may also abuse its discretion when the record
contains no evidence to support its decision. See MGIC
v. Moore, 952 F.2d 1120, 1122 (9th Cir.’91). The Petitio­
ner’s case has all the indications mentioned in the cited
cases and even more: complete disregard of facts and
even falsification of facts, complete disregard of the law
and even fabrication of the legal standards that do not
exist.
(1) The main legal and factual issue that the court used
Appendix B, page 2

'

t

in its decision is the issue of “jurisdiction” which the
Judge Anthony J. Scirica claimed federal courts lacked
in the Petitioner’s case which is a completely bogus
claim, especially in view that no fact was used to
support that claim. Neither any reference to any law or
rules of procedure was made by the Judge to support
that claim of lack of jurisdiction. Quite the opposite, the
“Civil Cover Sheet’ necessary for use to file a lawsuit in
the US Court for the District of Delaware specifically
defines characteristics of a lawsuit filed in that court for
determination of jurisdiction in section II. ‘Basic of
Jurisdiction’ indicated under # 3 ‘Federal Question’
which, in the Petitioner’s case is federal Civil Rights
Statute under 42 U.S.C. § 1983 and, therefore, District
Court had original jurisdiction because the case involves
a federal statute of civil rights (i.e., 42 U.S.C. § 1983).
In Petitioner’s case it is a systematic pattern of Dover
Police harassment that started in 2012 with her illegal
Appendix B, page 3

arrest, illegal incarceration, beating and torture in
prison and in this particular case (2013 or the following
year which followed another two subsequent events of
harassment in 2014 and 2015 - intentional falsification
by Dover Police Officer Dale Boney of evidence which he
used to charge Petitioner with motor vehicle violation,
actions that constitute a crime. JUDGE’S DECISION
IGNORED THOSE FACTS.

,

(2) Then Judge Scirica claimed that “§. 1443 authorizes
removal by defendants, not plaintiffs like Shahin” with
reference to the decision of the Court in Balazik v. City
of Dauphin, 44 F.3d 209, 214 n. 7 (3d Cir. 1995) to
support that claim. That is a fraudulent application of
law because nothing in that decision considers or defines
different

procedural

rights

for

transfer/removals

between courts made either plaintiffs or defendants.
The case was removed from a state to federal court by
the defendants, ‘Dauphin County, Dauphin Board of
Appendix B, page 4

Assessment Appeals and Swatara’ and no issue of the
identity of the transferors claimed by the Judge was
ever considered.

Moreover, n. 7 cited by the Judge

actually is located on page 215 not 214 and reads as
follows:
“This argument, which amounts to the contention that
§ 1447(d) bars review in all cases where a remand is
required, must be rejected, as it contravenes the
Supreme Court’s ruling in Thermtron that review is
barred only when the remand is based on § 1447(c):
“There is no indication whatsoever that Congress
intended to extend the prohibition against review to
each remand orders entered on grounds not provided in
the statute.” Thermtron, 423 U.S. at 350, 96 S.Ct. at
592. Further, it fails to consider this Court’s decisions
reviewing, and in some cases affirming remand that
were not based on §1447(c). As we have previously
noted:
[W]hile section 1447(d) was intended to prevent delay in
the trial of remanded cases by protracted litigation of
jurisdictional issues, - and the district court is therefore
given the last word on whether it has jurisdiction to
hear the case, - that policy does not apply when the
district court has reached beyond jurisdictional issues or
issues of defective removal, and has remanded for other
reasons. Foster v. Chesapeake Inc., Co., Ltd., 933 F.2d
1207, 1211 (3d Cir.), cert, denied, 502 U.S. 908, 112 S.Ct.
302, 116 L.Ed.2d 245 (1991), the jurisdictional bar of
§ 1447(d) does not apply, and we have jurisdiction to
review the May 11, 1994 order of the district court.”
Appendix B, page 5

So, there is absolutely nothing in that citation that
would support Judge Scirica’s claim because the cited
decision considers the merits of the transfer itself not
the identity of the transferors. The problem with his
argument is that although § 1443 authorizes removal by
defendants the reason that “defendants” specifically
mentioned in that section is the fact that without such
authorization defendants would have been stuck with
jurisdiction chosen by plaintiffs who have unlimited
freedom to choose jurisdiction in cases where such
choice is available. On the webpage of American Bar
Association this situation is described as follows:
“While a plaintiff is the master of her complaint (and
decides the forum in which she will file iawsuit) the
defendant is not without any say in the matter.”
So, the plaintiff, who, in this particular case is the
Petitioner, a priori has a legal right to transfer the case
to the District Court, especially since it has been filed
under provisions of a federal civil rights statute, FACT
Appendix B,page 6

COMPLETELY MISREPRESENTED AND FALSIFIED
BY THE JUDGE.
(3) And then the final Judge’s argument that “Shahin
has not shown that she has been “denied or cannot
enforce [her] specified federal rights in the state courts”
is nothing short of another ostensible lie and fraud
because Shahin specifically argued that point in her
“Objections” to the Court’s Administrative Assistant
determination of the legal deficiencies of her appeal filed
in May of 2019 because she attached in support of that
specific argument documentary evidence provided in
Exhibit C which the presiding over her case Judge of
the CCP court specifically refused to address issues
raised under provisions of 42 U.S.C. § 1983.

On

Petitioner’s appeal the State Superior and Supreme
Court did not even touch that subject ruling exclusively
on the basis of fraudulently interpreted and applied
Delaware Municipal Tort Statute but complete disreAppendix B, page 7

gard that Officer Boney committed a crime (unlike the
Court of Common Pleas judge who honestly refused to
considerate) and after the District Court “remanded” the
case to the State court absolutely nothing had happened
to process the “remanded case” and therefore no any
documentary evidence can be produced to demonstrate
failure of the State Superior and Supreme Courts to
consider Petitioner’s claims filed under provisions of
federal civil rights, statute which only emphasizes the
point of fraudulent claims made by the judge of the
Third Circuit.
(4) And the last but not least. As it was indicated in the
Administrative Assistant’s communication of April 26,
2019 about alleged “jurisdictional defect” of the
Petitioner’s appeal that
“The order that you have appealed is an order
remanding a case to a state court under 28 U.S.C.
§ 1447(d) (enclosed), {It was not enclosed and that claim
was a lie; remark by Petitioner, NS} an order remanding
a case to the state court from it was removed is not
reviewable on appeal or otherwise.”
Appendix B, page 8

Section 1447(d) reads as follows:
“An order remanding a case to the State court from
which it was removed is not reviewable on appeal or
otherwise, except an order remanding a case to the
State court from which it was removed pursuant to
section 1442 or 1443 of this title shall be reviewable by
appeal or otherwise.”
28 U.S.C. § 1443 ‘Civil rights cases’ reads as follows:
“Any of the following civil actions or criminal
prosecutions, commenced in a State court may be
removed by the defendant to the district court of the
United States for the district and division embracing the
place wherein it is pending:
(1) Against any person who is denied or cannot
enforce in the court of such State a right under
any law providing for the equal civil rights of
citizens of the United States or of al persons
within the jurisdiction thereof:
(2) For any act under color of authority derived
from any law providing for equal rights under
color of authority derived from any law providing
for equal rights, or for refusing to do any act on
the ground that it would be inconsistent with
such law.”
Judge A.J. Scirica failed to address that fraudulent
pretext under which Petitioner’s appeal had been denied
by Administrative Assistant by injecting the issue of the
right to transfer a case allegedly assigned only to “deAppendix B, page 9

fendants” and not plaintiffs. Then he substituted claim
of application of provisions of 28 U.S.C. § 1447(d) under
which

Petitioner’s

appeal

had

been

denied

by

Administrative Assistant for 28 U.S.C. § 1447(c) that
describes procedural steps and has nothing to do with
issues of jurisdiction or procedural defects of transfer.
So, the main issue of fraudulent denial of the
Petitioner’s appeal that falls under provisions of Civil
Right Act and, therefore, should have been considered
under the law was substituted in importance for issues
of procedural steps mentioned in subsection (c) which
has nothing to do with the essential issues of appeal:
denial of civil rights or more precisely systematic
harassment by Dover Police that started in 2012 with
the Petitioner’s illegal arrest, illegal incarceration,
beatings and torture in prison as a result of which she
came out as a complete invalid unable to walk and sub­
sequent denial of access to justice in that case also
Appendix B, page 10

exclusively in federal courts including Third Circuit
Court of Appeals.
Since this decision of the Court signed by the Judge
Anthony J. Scirica, is a gross abuse of judicial discretion
filled with lies, falsifications of facts, and fraudulent
claims of applicable law it resulted in denial of access to
justice to a national minority woman and pro se litigant.
Judge’s actions are therefore evidence of corruption of
that federal judicial system which was supposed to be
fair and just
minority

and discrimination against a national

pro se litigant.

Petitioner, therefore is

presenting copies of her “Objections” filed in May of this
year with all supporting documents presented in
Exhibits as well as original of this Petition to the FBI
anticorruption unit as supporting documentary evidence
(in addition to the evidence of the Petitioner’s Writ of
Mandamus case provided before) of complete corruption
of the Delaware federal, State judicial system as well as
Appendix B, page 11

appellate process and discrimination in systematic
pattern of denying Petitioner’s constitutional rights for a
fair trial and access to justice. Petitioner has to mention
also that after that 2012 illegal arrest and illegal
incarceration professional attorneys who represented
her in the subsequent legal battle and ensured “not
guilty” verdict (Kevin Howard) was pushed out of legal
profession and no longer practices law in Delaware. As
he acknowledged to the Petitioner he was under
tremendous pressure from the prosecutor in the case to
pressurize Petitioner to accept some charges or nolo
contendere plea which Petitioner flatly refused and
produced 47 pictures of her injuries (from her forehead
to her toes) made by forensic nurse in Christiana
hospital immediately upon her release from prison. It
has to be noted also that the same Judge who issues a
court order to illegally incarcerate Petitioner in 2012
when she was unconscious issued “not guilty” order in
Appendix B, page 12

this case of Officer Dale Boney’s falsification of the
underlying evidence which was presented in the court
and accepted by the Judge. After that case of illegal
arrest by Dover Police though no attorney in Delaware
would touch in any court any of her cases. But in the
US judicial system racial and national minorities and
pro se litigants cannot compete with professional
attorneys who are protected by judges in corrupt judicial
system (state and federal)!
Respectfully submitted on this Twenty Third Day of
September, 2019.
For the Appellant, s/Nina Shahin
NINA SHAHIN, CPA, MAS, MST

Appendix B, page 13

CLD-238

July 18, 2019

UNITED STATES COURT OF APPEALS FOR THE
THIRD CIRCUIT
C.A. No. 19-1829
NINA SHAHIN, Appellant
VS.
DALE BONEY, Dover Police Officer, Badge # 10216; ET
AL.,
(D, Del. Civ. No. l-17-cv-00413) ....
Present:,

. CHAGARES,, RESTREPO and SCIRICA,
Circuit Judges
. '

Submitted are:
(1) By the Clerk for possible dismissal due to
jurisdictional defect;
(2) By the Clerk for possible summary action under 3rd
Cir. LAR 27.4 and Chapter 10.6 of the Court’s
Internal Operating Procedures; and
(3) Appellant’s response
in the above-captioned case.
Respectfully,
Clerk
__________ORDER______________
This appeal is dismissed for lack of appellate jurisAppendix C, page 1

diction in part and summarily affirmed in part. To the
extent that Shahin removed her action pursuant to 28
U.S.C. § 1441, we lack jurisdiction to review the District
Court’s order remanding the matter to state court or
denying reconsideration because the District Court
remanded for lack of subject matter jurisdiction. See_28
U.S.C. § 1447(c), (d); Powerex Coro, v. Reliant Energy
flervs.. Inc.. 551 U.S. 224, 229 (2007); see also Agostini
v. Piper Aircraft Corn., 729 F.3d 350, 353 (3d Cir. 2013)
(“[I]f we do not have jurisdiction to review a remand
order itself, we cannot have jurisdiction to review a
motion to reconsider a remand order.”). To the extent
that Shahin maintains, that removal was proper under
28 U.S.C. § 1443, we sumnjarily affirm, the District
Court’s remand order and denial of reconsideration
because § 1443 authorizes removal only by defendants,
not plaintiffs like Shahin, see Balazik v.— City—of
Dauphin, 44 F.3d 209, 214 n. 7 (3d Cir. 1995), and
because Shahin has not shown that she has been
“denied or cannot enforce [her] specified federal rights in
the state courts,” Davis v. Glanton, 107 F.3d 1044, 1050
(3d Cir. 1997) (quotation marks omitted), as is necessary
to remove under § 1443.
By the Court,
s/Anthonv J. Scirica
Circuit Judge
Dated: September 11, 2019
Tmm/cc: Nina Shahin
Daniel A. Griffith, Esq.

Appendix C, page 2

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
Nina Shahin,

)

No. 19-1829

Petitioner-Appellant
v.

)
)
)
)

Petition for Writ of
Mandamus

OFFICER DALE BONEY, )
Appellees,

)
)
)

No. 19-1682

APPELLANT’S OBJECTIONS REGARDING
ADMINISTRATIVE ASSISTANT’S
DETERMINATION ABOUT JURISDICTION OF
THIS COURT OVER THIS PARTICULAR CASE
In Pro Se representation by Nina Shahin
103 Shinnecock Rd.
Dover, DE 19904
Tel. No. (302) 526-2152
Attorney for the Appellee: Daniel A. Griffith, Esq.

WHITEFORD TAYLOR &
PRESTON
The Renaissance Center
405 N. King St., Suite 500
Wilmington, DE 19801

Appendix D, page 1

Appellant received communication from the Third
Circuit Court of Appeals dated April 26, 2019, that was
supposed to be signed by a clerk. Patricia S. Dodszuweit,

but

actually

signed

by

Maria

Winans,

Administrative Assistant, which raises a question about
the reasons of why the clerk of the Third Circuit Court
of Appeals hid under the name of Administrative
Assistant in their harassment of the national minority
and pro se litigant because that communication cannot
be characterized in any other terms but a ‘Deprivation of
Rights under Color of Law’ under provisions of Title 18
of the US Code, Part I, ‘Crimes’ Chapter 13 ‘Civil
Rights,’

section

242

which

means

that

administrative assistant committed a felony.
that

“administrative

assistant’s”

the

Copy of

communication

is

presented in Exhibit A.
1. In that Court’s communication under the title
‘Jurisdictional Defect’ it is written the following:
Appendix D,page 2

“The order that you have appealed is an order
remanding a case to a state court. Under 28 U.S.C.
Section 1447(d)(enclosed), an order remanding a case to
the state court from which it was removed is not reviewwable on appeal or otherwise.”
Copy of the section 1447 of Title 28 U.S.C. was not
enclosed regardless of the claim to the opposite which
usually happens in those cases when the state or federal
court harasses national minority and pro se litigant
because the law they references, was misrepresented and
misapplied as in this case,

Copy of that section is

presented in Exhibit B and says the following:
“An order remanding a case to the State court from
which it was removed is not reviewable on appeal or
otherwise, except that an order remandins a case to
the. State court from which it was removed
pursuant to section 1442 or 1443 of this title shall
be reviewable bv appeal or otherwise
28 U.S.C. § 1443 ‘Civil Rights Cases’ (reverse of
Exhibit E) stipulates the following:
“Any of the following civil actions or criminal
prosecutions, commenced in a State court may be
removed by the defendant to the district court of the
United States for the district and division embracing the
place wherein it is pending:
Appendix D, page 3

(1) Against any person who is denied or cannot enforce
in the courts of such State a right under any law
providing for the equal civil rights of citizens of the
United States, or of all persons within the jurisdiction
thereof;
(2) For any act under color of authority derived from
any law providing for equal rights, or for refusing to do
any act on the ground that it would be inconsistent with
such law.”
2.

This case has been transferred to the US District

Court through initiation process in the Court of
Common Pleas of Kent County (State court) under
provisions of 42 U.S.C.

§

1983. ‘Civil Action for

deprivation of Rights’ because of SYSTEMATIC Dover
Police harassment including this case in which Officer
Dale Boney falsified evidence on basis of which he
issued fraudulent citation to the Appellant (felony under
state and federal laws). That federal civil rights statute
has exclusive federal subject matter jurisdiction and the
Judge of the Federal District Court had no authority to
transfer the case back to the State Court where it has
already been adjudicated and Defendant office cleared
Appendix D, page 4

under provisions of The County and Municipal Tort
Claims Act, 10 Del.C. § 4011. Moreover, remanding the
case to the Court where it has already been adjudicated
without any additional evidence would fall under
principles of doctrine of Res Judicata and be subject
automatic dismissal. In either of those two cases actions
of , the District Court Judge that remanded the case to
the Court which, had no jurisdiction over the case and
which had already adjudicated the case w3ouM.be
. i •.

questionable legally and on the basis of professional
ethics. Copy of the Appellant’s filing to that effect in the
Court of Common Pleas is provided in Exhibit C along
with a copy of the Court’s decision of July 19, 2016.
Note the Judge’s remarks regarding application of pro­
visions of 42 U.S.C. § 1983 on page 5 of the Court’s
decision: “The Court disregarded the plaintiffs 42
U.S.C. § 1983 claim because it was improper and outside
the scope of the Court’s Order.” Copy of the decision of
Appendix D,page 5

the District Court denying Appellant’s Motion for
Reargument in which the Judge indicated the name of
the Defendant as the ‘Court of Common Pleas of the
State of Dale Boney’ is presented in Exhibit D.
Therefore, provisions of 28 U.S.C. § 1443 are specifically
applicable to the Appellant’s case but omitted and
completely ignored by the

Court’s communication

wsigned by the Administrative Assistant who thus
committed felony under 18 U.S.C. § 242.
CONCLUSION
In view of all these facts, Court’s communication of April
26, 2019, which was not even signed by the Court’s clerk
(let alone any judge) is nothing short of intentional
harassment, intimidation, deprivation of civil and con­
stitutional rights and felony under provisions of 18
U.S.C. § 242.

Appellant, therefore demands these

“Objections” to be included to her Petition for Writ of
Mandamus as supporting evidence that the Appellant’s
Appendix D,page 6

Petition has also been mishandled by this Court in
violation of provisions of 18 U.S.C. § 3771(d)(3) that
provides not more than 5 days to enforce provisions of
that section.

Court failed to act on the Appellant’s

Petition according to its own ‘Order’ copy of which is
provided in Exhibit E. Instead the Court additionally
deprived the Appellant of her civil rights under color of
law thus committing a felony. Appellant’s appeal has to
go through a formal process of submitting briefs and
having the Appellant Court to consider the underlying
material facts and the standards of applicable and
controlling law!
These “Objections” were respectfully submitted on this
Sixth Day of May, 2019.
For the Appellant, s/Nina Shahin
NINA SHAHIN, CPA, MAS, MST

Appendix D, page 7

CLD-159

NOT PRCEDENTIAL

UNITED STATES COURT OF APPEALS FOR THE
THIRD CIRCUIT
No. 19-1682
IN RE: NINA SHAHIN, Petitioner
On a Petition for Writ of Mandamus from the United
States District Court for the District of Delaware
(Related to Civ. Nos. l-17-cv-00413 & l-17-cv-01223)
Submitted Pursuant to Rule 21, Fed. R. App. P.
April 11, 2019
Before: CHAGARES, RESTREPO and SCHIRICA,
Circuit Judges
(Opinion filed: May 2, 2019)

OPINION*
PER CURIAM
PRO SE PETITIONER Nina Shahin has filed a petition
* This disposition is not an opinion of the full Court and
pursuant to I.O.P. 5.7 does not constitute binding
precedent.
Appendix E, page 1

for a writ of mandamus, seeking relief under the Crime
Victims’ Rights Act (CVRA), 18 U.S.C. § 3771. For the
reasons set forth below, we will deny the petition.
Shahin’s petition is “closely related to two civil cases.”
Pet. At 5. In the first case, she alleged that Sam’s Club
and Synchrony Bank engaged in “intentional and illegal
harassment., in response to [her] dissatisfaction with
her failure to purchase a desired and advertised item.”
D.Del.C. A. No. 17-cv-1223, ECF No. 7 at 24. In the
second case,. Shahin alleges that a police officer had filed
-

■ V

.

.

-

•■’■■■

■

■

’

■

■'

-

■

•

a fabricated accident report against her, which cause
her

insurance

company

to

deny

her

claim

for

reimbursement. D.Del. Civ. A. No. 17-cv-0413, ECF No.
13-2 at 2.

She originally filed both actions in the

Delaware Court of Common Pleas, and then sought to
remove the actions to the United States District Court
for the District of Delaware.

In separate orders, the

District Court remanded the matters to the Court of
Appendix E,page 2

Common Pleas, explaining, among other things, that
there was no judicial jurisdiction, that removal was
untimely, and there was nothing to remove because both
actions had been fully adjudicated in the Court of
Common Pleas.” Civ. A. No. 17-cv-1223, ECF No. 10 at
5; Civ. A. 17-cv-0413, ECF No. 20 at 5.
Now, Shahin has filed a petition for writ of mandamus.
She argues that she is entitled to relief under CVRA.
More specifically, she contends that there has been “a
pattern

of

judicial

harassment,

intimidation,

deprivations of constitutional rights to a fair trial and
‘due process’ and ‘equal protection’ in the Delaware
judicial system (state and federal),” which has resulted
in her being “victimized the second time in the judicial
process.’ Pet. At 5.
Shahin has not been denial any rights under CVRA that
could form the basis for mandamus relief in this Court.
The CVRA guarantees to the victim of federal crimes a
Appendix E, page 3

variety of rights, including the right to notice of a court
proceeding involving the crime, the right to be present
at any such public court proceeding, the right to be
reasonably heard at such a proceeding, and the right to
receive “full and timely restitution as provided in law.”
18 U.S.C. § 3771(a). A crime victim can assert these
rights, in the District Court, and if the District Court
denies , relief, can file a petition for a writ of mandamus
in a Court of Appeals. § 3771(d)(3).
However, in this case, Shahin is seeking only to advance
her civil actions. “The rights codified by the CVRA...are
limited to the criminal justice process; the Act is
therefore silent and unconcerned with victims’ rights to
file civil claims against their assailants. United States v.
Moussaoui. 483 F.3d 220, 234-35 (4th Cir. 2007); see also
In re Siler. 571 F.3d 604, 610 (6th Cir. 2009). As the
CVRA provides, “[njothing in this chapter shall be
construed to authorize a cause of action for damages or
Appendix E, page 4
. i

■

...

to create, to enlarge, or to imply any duty or obligation
to any victim or other person for the breach of which the
United States or any of its officers or employees could be
held liable in damages.” § 3771(d)(6).

Accordingly,

Shahin has failed to demonstrate a right to relief under
CYRA.1
We will therefore deny the mandamus petition.

1 Shahin does not challenge the District Court’s remand
orders, and we therefore do not consider whether we
would have jurisdiction over such a challenge. See
generally In re Fed.-Mogul Glob.. Inc.. 300 F.3d 368, 388
(3d Cir. 2002)

Appendix E,page 5

CLD-159
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-1682
IN RE: NINA SHAHIN, Petitioner
On a Petition for Writ of Mandamus from the United
States District Court for the District of Delaware
(Related to Civ. Nos, 1-17-00413 & l-17-cv-01223)
Submitted Pursuant to Rule 21, Fed. R. App. P.
April 11,,2019
Before: CHAGARES, RESTREPO and SCHIRICA,
Circuit Judges
JUDGMENT
This cause came to be considered on a petition for writ of
On
mandamus submitted on April 11, 2019.
consideration whereof, it is now hereby
ORDERED and ADJUDGED by this Court that the
petition for writ of mandamus be, and the same is,
denied. All of the above in accordance with the opinion
of the Court.
ATTEST:
s/Patricia D. Dodszuweit
DATED: May 2, 2019
Appendix E, page 6
*

.

V'

OFFICE OF THE CLERK
UNITED STATES COURT OF APPEALS FOR THE
THIRD CIRCUIT
Patricia S. Dodszuweit
Clerk
April 26, 2019
Nina Shahin 103
Shinnecock Rd.
Dover, DE 19904

TELEPHONE
215-597-2995

RE: Nina Shahin v. Dale Boney, et al
Case Number: 19-1829
District Court Case Number: l-17-cv-00413
Dear Ms. Shahin:
This will advise you that the above-captioned appeal
will be submitted to a panel of this Court for possible
dismissal due to a jurisdictional defect. The Court also
will consider possible summary action pursuant to
Chapter 10.6 of the Internal Operation Procedures of
the United States Court of Appeals for the Third Circuit.
See Third Circuit Local Appellate Rule 27.4.
Jurisdictional Defect
It appears that this Court may lack appellate
jurisdiction for the following reasons:
The order that you have appealed is an order remanding
a case to a state court. Under 28 U.S.C. Section
1447(d)(enclosed), an order remanding a case to the
state court from which it was removed is not reviewable
on appeal or otherwise.
Appendix F, page 1

Summary Action
Chapter 10.6 provides that the court sua ponte (by its
own action) may take summary action on an appeal if it
appears that no substantial question is presented or
that subsequent precedent or a change in circumstances
warrants such action. Specifically Court may affirm,
reverse, vacate, modify, or remand the judgment or
order appealed.
Issuance of the briefing schedule will be stayed pending
action by the Court. All other filing requirements must
be.completed (i.e., payment of fees, entry of appearance,
corporate
disclosure
statement,
civil
appeal
information).
,
Responses
Jurisdictional defects cannot be remedied by the Court
of Appeals. The parties may submit written argument
regarding jurisdiction, or in support of or opposition to
summery action. Any response must be received in the
Clerk’s Office within twenty-one (21) days from the date
of this letter. Please submit to the Clerk an original
copy pf any response, and a certificate of service
indicating that all parties have been served with a coy of
the response. Upon expiration of the response period,
the case will be submitted to the Court for consideration
of the jurisdictional question and for possible summer
action.
The parties will be advised of any order issued in this
matter.
Very truly yours,
Appendix F, page 2

Patricia S. Dodszuweit,
Clerk
By:
Maria Winans, Administrative Assistant
cc:

Daniel A. Griffith, Esq.

Appendix F, page 3

IN THE UNITED STATES DISTRICT COURT FOR
THE DISSTRICT OF DELAWARE
NINA SHAHIN,
Plaintiff,
Civil Action No. 17-413-LPS

v.

Delaware in and for Kent
Court of Common Pleas
of the State of DALE BO-:County
C.A. No. CPU5-14-000682
NEY, et al„
Defendants. :
MEMORANDUM
1. Introduction. Plaintiff Nina Shahin ( Shahin),
who proceeds pro se, filed a formal petition for transfer
of a case she filed in the Court of Common Pleas for the
State of Delaware in and for Kent County, Shahin v.
Boney, C.A. No. CPU5-14-000682. (D.I. 1). The petition
was docketed as a notice of . removal.

On March 13,

2018, The Court remanded the case to the Court of
Common Pleas for the State of Delaware in and for Kent
County. (D.I. 20, 21).
Appendix G, page 1

2. Plaintiff filed a motion for reargument, construed by
the court as a motion for reconsideration.

(D.I. 24)

Plaintiff moves for reconsideration on the grounds that
there are errors in factual and procedural background,
errors in judgment and application of legal standards,
and

the

Court

reached

the

wrong

conclusions.

Defendants oppose the motion.
3.

Motion for Reconsideration. The purpose of a

motion for reconsideration is to “correct manifest errors
in law or fact or to present newly discovered evidence,”
Max’s Seafood Cafe ex rel. Lou-Ann, Inc. v. Quinteros,
176 F.3d 669 (3d Cir. 1999). “A proper Rule 59(e)
motion...must rely on one of three grounds: (1) an
intervening

change

in

controlling

law;

(2)

the

availability of new evidence; or (3) the need to correct a
clear error of law or fact or to prevent manifest of
injustice.” Lazaridis v. Webmer, 591 F.3d 666, 669 (3d
Cir. 2010) (internal citation omitted).
Appendix G, page 2

4. Plaintiffs displeasure with this Court’s ruling does
not meet the requisites for reconsideration. Plaintiffs
motions fail on the merits because she had not set forth
any intervening changes in the controlling law; new
evidence; or clear errors of law or fact made by the Court
in its two orders to warrant granting reconsideration.
See Max’s, Seafood Cafe, 116.; F.3d at 677. Nor -does she
address the fact that, her claims were fully adjudicated
in State court. Nonetheless, once again the Court has
'

... i

•

.i

•/

considered the filing of the parties and the evidence of
record. Plaintiff has failed to demonstrate any of the
grounds to warrant a reconsideration. For these rea­
sons, the motion will be denied.
5. Conclusion. The Court will deny Plaintiff s motion
for reconsideration. (D.I. 24). An appropriate ordered
will be entered.
March 12, 2019
_________
/s/ Leonard
P. Stark
Wilmington, Delaware HONORABLE LEONARD P.
STARK, US DISTRICT JUDGE
Appendix G, page 3

IN THE UNITED STATES DISTRICT COURT FOR
THE DISSTRICT OF DELAWARE
NINA SHAHIN,
Plaintiff,
v.

Civil Action No. 17-413-LPS

Court of Common Pleas : Delaware in and for Kent
of the State of DALE BO-:County
NEY, et al.
C.A. No. CPU5-14-000682
Defendants.
ORDER
At Wilmington this 12th day of March, 2019, for the
reasons set forth in the memorandum issued this date;
IT IS HEREBY ORDERED that:
Plaintiffs motion for reargument, construed as a motion
for reconsideration is DENIED. (D.I. 24)

/s/ Leonard P. Stark
HONORABLE LEONARD P. STARK
UNITED STATES DISTRICT JUDGE

Appendix G, page 4

IN THE SUPREME COURT OF THE STATE OF
DELAWARE
§ No. 425, 2018

NINA SHAHIN,

§

Appellant Below,
Appellant,
v.

§ Court Below - Superior
§ Court of the State of
§ Delaware
§

§

C.A. No. K17A-12-004

DOVER POLICE
§
OFFICER DALE BONEY §
! 'y:

Appelee Below,
Appelee.

§
§
§
§

Submitted: December 28, 2019
Decided: February 26, 2019
Before STRINE, Chief Justice, VALIHURA and
TRAYNOR, Justices.
ORDER
Upon review of the parties’ briefs, the Superior Court
record, and the record from the Court of Common Pleas,
it appears to the Court that:
(1) The appellant, Nina Shahin, filed a complaint in the
Court of Common Pleas against Dover Police Officer
Dale Boney and State Farm Mutual Insurance Company
Appendix H, page 1

(“State Farm”). The complaint arose out of a traffic
ticket that Shahin received from Officer Boney when
Shahin was involved in a minor traffic accident in the
parking lot of a grocery store in Dover.

Shahin also

alleged that Officer Boney fabricated the police report,
which caused State Farm to deny Shahin’s claim for
reimbursement for damages caused to her vehicle in the
accident.
(2) By order dated April 13, 2016, the Court of Common
Pleas dismissed Shahin’s complaint against Officer
Boney after finding that Officer Boney was immune
from liability under the County and Municipal Tort
Claims Act.1 By order dated July 19, 2016, the Court of
Common Pleas denied Shahin’s motion to alter or
amend the April 13, 2016 judgment.2
(3) Following the dismissal of the complaint against
12016 WL 3152575 (Del. Com. PI. April 13, 2016).
22016 WL 5660318 (Del. Comm. PI. July 19, 2016).
Appendix H, page 2

Officer Boney, Shahin and State Farm filed cross­
motions for summary judgment. The Court of Common
Pleas denied Shahin’s motion for reargument of the
order granting summary judgment to State Farm and
Shahin’s motion for relief from the denial of the motion
for reargument.
(4). Shahin appealed, to the Superior.;Court, By order
dated June 16, 2018, the Superior Court affirmed the
judgment of the Court of Common Pleas.3 The court also
denied Shahin’s motion for reconsideration of the June
6, 2018 order.
(5) On appeal in this Court, Shahin challenges the Court
of Common Pleas’ dismissal of her complaint against
Officer Boney. We apply the same standard of review as
the Superior Court and review independently the
underlying decision of the Court of Common Pleas.4
3 2018 WL 2733372 (Del. Super. June 6, 2018).
4 Hichlin v. Onyx Acceptance Corp., 970 A.2d 244, 248
(Del. 2009).
Appendix H, page 3

t

(6) Upon de novo review, we find no error in the Court
of Common Pleas’ dismissal of the complaint^hgainst
Officer Boney for failure to state a claim, and we find no
error in the Court of Common Pleas’ denial of Shahin’s
motion to alter or amend the judgment.

Shahin’s

complaint did not allege that Officer Boney caused
personal injury, property damage, or death.

For that

reason, Officer Boney was immune from liability under
the County and Municipal Tort Claims Act.5
NOW, THEREFORE, IT IS ORDERED that the
judgment of the Superior Court is AFFIRMED.
BY THE COURT:
/s/ Karen L. Valihura
Justice

5 10 Del.C. § 4011(c) (Supp. 2019).

Appendix H, page 4

IN THE SUPERIOR COURT OF THE STATE OF
DELAWARE
NINA SHAHIN,
C.A. No. K17A-12-004 NEP
In and for Kent County

Appellant,
v.

DOVER POLICE OFFICER
DALE BONEY, AND
:
STATE FARM AUTOMO-:
BILE INSURANCE CO., :
Appellees.

'

ORDER
Submitted: June 20, 2018
Decided: July 17, 2018
UPON CONSIDERATION OF the Motion for Recon­
sideration filed by Appellant Nina Shahin (hereafter
“Appellant”), and the response in opposition filed by
Respondent Dale Boney, the Court finds that the Motion
V

f-

for Reconsideration is without merit and is DENIED.
A motion for reconsideration or reargument filed
■

,

•

pursuant to Superior Court Civil Rule 59(e) will only be
granted if “the Court has overlooked a controlling preceAppendix I, page 1
i

dent or legal principles,

or the

Court has mis­

apprehended the law or facts such as would have
changed the outcome of the underlying decision.”1
Motions for reargument should not be used to rehash
arguments already decided by the Court, or to present
new arguments that were not previously raised.2 Using
a motion for re argument for either of these improper
purposes “frustrate [s] the efficient use of judicial
resources, place [s] the opposing party in an unfair position, and stymie [s] ‘the orderly process of reaching clo­
sure on the issues.’”3 In order for the motion to be gran­
ted, the movant must “demonstrate newly discovered
evidence, a change in the law, or manifest injustice.”4
1 Kennedy v. Invacare, Inc., 2006 WL 488590, at *1 (Del. Super. Jan.
31, 2006) (citing Bd. of Managers of the Del. Criminal Justice Info.
Sys. V Gannet Co., 2003 WL 1579170, at *1 (Del. Super. Jan. 17,
2003)).
2 Tilghman v. Del. State Univ., 2012 WL 5551233, at *1 (Del. Super.
Oct. 16, 2012).
3 Id., (citing Plummer v. Sherman, 2004 WL 63414, at *2 (Del.
Super. Jan. 14, 2004)).
4 Brenner v. Village Green Inc., 2000 WL 972649, at *1 (Del. Super.
May 23, 2000) (citing E.I. DuPont de Nemours Co., v. Admiral Ins.
Co., 711 A.2d 45, 55 (Del. Super. 1995)).

Appendix I, page 2

“Delaware law places a heavy burden on a [party]
seeking relief pursuant to Rule 59.”5
Here, the Court finds that Appellant’s motion fails to
satisfy that heavy burden. The motion rehashes prior
arguments and repeats factual allegations that were
addressed in this Court’s June 6, 2018, order affirming
the decision of the Court of Common Pleas. In addition,
the: motion for reargument fails to identify newly dis­
covered evidence or change in the law, and fails to
manifest injustice.
WHEREFORE, for the foregoing reasons, the motion is
hereby DENIED.
IT IS SO ORDERED.
/s/Noel Eason Primos
Noel Easton Primos, Judge

NEP/wjs
Via File & ServeXpress
oc: Prothonotary
xc: Nina Shahin
Daniel A. Griffith, Esquire
Scott G. Wilcox, Esquire
Miranda D. Clifton, Esquire

5 Newborn v. Christiana Psychiatric Serv., P.A., 2017 WL 394096 at
*2 (Del. Super. Jan. 25, 2017).

Appendix I, page 3

IN THE SUPERIOR COURT OF THE STATE OF
DELAWARE
*
*

NINA SHAHIN,
Appellant,
V.

* C.A. No. K17A-12-004 NEP
* In and for Kent County
*

DOVER POLICE OFFICER
*
DALE BONEY, AND
STATE FARM AUTOMO-*
BILE INSURANCE CO., *
*

Respondents.*
*

APPELLANT’S MOTION FOR
RECONSIDERATION
Appellant files this Motion for Reconsideration of the
Court’s Order dated June 6, 2018 under provisions of
Rule 59(e) because of complete falsification by the
presiding Judge of the legal basis of the Appellant’s
Appeal to the Delaware Superior Court.
The second sentence of the Court’s June 6, 2018 Order
indicates of what type of confusion the presiding Judge
was when he wrote that decision.

The first two

sentences of that Order are copied below to emphasize
Appendix J, page 1

the point:
“Plaintiff-Below/Appellant Nina Shahin (hereinafter
“Appellant”), appeals from an order of the Court of
Common Pleas (hereinafter the “CCP”). In that order,
the CCP granted denied (emphasis in Italics and
underlining was added by the Appellant) Appellant’s
Court of Common Pleas Civil Rule 60(b) for relief.”
Appellant has two issues with that statement: 1) The
order of the CCP can be either granted or denied but not
both. Apparently, Honorable Judge, Noel Eason Primos,
was in complete state of confusion when he wrote his
Order; 2) As he noted on page 3 of his Order Rule 60(b)
of CCP Rules of Civil Procedure there are 6 reasons for
filing Motion under that Rule and all of those reasons
except for # 5 were presented in the Appellant’s Opening
and Reply Brief (factual and legal) but the Judge
decided to ignore all those reasons including all legal
arguments

and

legal

analysis

presented

in

the

Appellant’s Briefs without any indication of why those
reasons (individually) were not meeting the standards.
Appendix J, page 2

He further claimed that “relief under Rule 60(b)
requires a showing of “extraordinary circumstances.”
Appellant did show those “extraordinary circumstances”
that included a systematic pattern of Dover Police
harassment starting in 2012 with her illegal arrest,
illegal incarceration, beatings and torture in prison that
resulted in her rendered invalid and unable to walk. In
this particular case the Defendant, officer Boney,
falsified the evidence, fact not even mentioned in the
Judge’s description of underlying material facts.
.

If

those circumstances are not “extraordinary” then he has
to explain the reason of why there were not (may be the
Appellant’s death would be the only “extraordinary”
reason?)

In view of that fact and the fact that the

decision of the CCP were the clear cover-up of the
criminal behavior of the Defendant his conclusion that
“Appellant has failed to cite any authority relating to
Rule 60(b), much less any authority indicating that the
Appendix J, page 3

CCP’s denial of her motion

constituted an abuse of

discretion” (sic!)
In order to convey legitimacy to his June 6, 2018 Order
the Honorable Judge has to address the following issue:
why Appellant’s circumstances are not “extraordinary”
and why five of six possible grounds for relief under
Rule 60(b) were not satisfied in.,the Appellant’s case
based on the facts and circumstances without any
omissions or disregards (let alone misrepresentations as
this Judge in another Appellant’s case on May 9, 2018)
as the Judge did in this Order.
Respectfully submitted on this eleventh Day of June
2018.
For the Appellant, /s/Nina Shahin
NINA SHAHIN,CPA, MAS,MST
103 Shinnecock Rd.
Dover, DE 19904
(302) 526-2152

Appendix J, page 4

IN THE SUPERIOR COURT OF THE STATE OF
DELAWARE
NINA SHAHIN,
C.A. No. K17A-12-004 NEP
In and for Kent County

Appellant,
v.
DOVER POLICE OFFICER
DALE BONEY, AND
:
STATE FARM AUTOMO-:
BILE INSURANCE CO., :
Appellees.

ORDER
Submitted: April 3, 2018
Decided : June 6, 2018
Upon Consideration of Appellant’s Appeal from the
Court of Common Pleas
AFFIRMED
Plaintiff-Below/Appellant

Nina

Shahin

(hereinafter

“Appellant”), appeals from an order of the Court of
Common Pleas (hereinafter the “CCP”). In that order,
the CCP granted denied Appellant’s Court of Common
Pleas Civil Rule 60(b) motion for relief. This Court find
no merit to Appellant’s appeal and affirms the CCP’s
Appendix K, page 1

order.
The record reflects that on September 3, 2013, Dover
Police officer Dale Boney (hereinafter “Appellee”) issued
Appellant a traffic citation in connection with a traffic
accident in a grocery store parking lot. A year later, on
September 3, 2014, Appellant filed a civil complaint
against Appellee and State Farm Mutual Automobile
Insurance Co., (hereinafter “State Farm”) in the CCP.
Appellant alleged that Appellee had wrongfully issued
Appellant a traffic citation, and that State Farm had
J

■

'

''

breached its insurance agreement by denying her claim
for reimbursement relating to the repair of her right
rear bumper, allegedly damaged in the accident.
Appellee then moved for dismissal, claiming immunity
from suit pursuant to 10 Del.C. § 4011. The CCP agreed
and on April 13, 2016, dismissed Appellant’s claim
against Appellee. Later, Appellant sought to join AllState Insurance Co., (hereinafter “All-State”) as an addiAppendix K, page 2

tional indispensible party under Court of Common Pleas
Civil Rule 19, claiming that All-State had insured the
driver of the other vehicle involved in the accident, and
possessed information about the details of the accident.
On June 12, 2017, the CCP denied that motion, noting
that Appellant’s claim is related to State Farm’s alleged
breach of its insurance agreement with Appellant, and
that All-State was not a party to that contract and has
no interest in or connection to Appellant’s breach of
contract claim. Appellant filed a motion for reargument
of that order on June 23, 2017. In a decision dated July
11, 2017, the Court denied Appellant’s motion as
meritless, noting that it merely repeated arguments
previously made.
Appellant filed a CCP Rule 60(b) motion for relief of the
CCP’s

July

11,

2017

order

denying

reargument

(hereinafter the “60(b) Motion). On November 30, 2017,
the CCP denied the 60(b) Motion, finding that it had
Appendix K, page 3

properly denied the motion for reargument on its merits
and that no extraordinary circumstances were alleged.
The CCP explained that the 60(b) Motion merely
rehashed the arguments Appellant had made in the
initial motion to join All-State as an indispensible party.
Appealing that order to this Court, Appellant argues
that the order, is. invalid because .the CCP judge
allegedly (1) violated Appellant’s due process and equal
protection rights; (2) colluded with-opposing counsel to
cover up misconduct; and (3) systematically harassed
and intimidated Appellant and engaged in racketeering.
Appellant’s opening brief failed to address considerations relevant to this Court’s review of the CCP’s
exercise of discretion, electing instead to accuse the CCP
judge of criminal and civil rights violations, and to
recount the “systematic harassment...illegal incarcera­
tion, beatings and torture” allegedly suffered by Appel­
lant at the hands of the Dover Police Department.
Appendix K, page 4

Motion for relief brought pursuant to Rule 60(b) are
addressed to a court’s sound discretion, and shall only
be set aside if the appellate court finds an abuse of
discretion.1 Although not cited in Appellant’s twentyseven page opening brief, CCP Civil Rule 60 controls the
disposition of a motion for relief from a decision of the
CCP, setting forth six possible grounds for relief:
(1) Mistake, inadvertence, surprise, or excusable
neglect; (2) newly discovered evidence which by due
' diligence could not have been discovered in time to move
for a new trial under Rule 59(b); (3) fraud (whether
heretofore
denominated
intrinsic
or
extrinsic),
misrepresentation or other misconduct of an adverse
party: (4) the judgment is void; (5) the judgment has
been satisfied, released, or discharged, or a prior
judgment upon which it is based has been reversed or
otherwise vacated, or it I no longer equitable that the
judgment should have prospective application; or (6) any
other reason justifying relief from the operation of the
judgment.
A grant of relief under Rule 60(b) requires a showing of
“extraordinary circumstances.” Litigants are prohibited
from using a 60(b) motion “as a substitute for a timely

1 Wife B v. Husband B, 395 A.2d 358, 359 (Del. 1978).

Appendix K, page 5

filed appeal,”2 or using a 60(b) as a motion for re­
argument to ’’indefinitely challenge the underlying
motion’s precepts.”3 On appeal, the appellant as an
obligation to “marshal the relevant facts and establish
reversible error by demonstrating why the action at trial
was

contrary to

persuasive

either

decisional

controlling precedent or
authority

from

other

jurisdictionsd.”4 Further, “Failure to cite any authority
in support of a legal argument, constitutes a waiver of
the issue on appeal.”5
As an initial matter, the Court will only summarily
address Appellant’s submitted questions for review, as
they

are

procedurally improper.

As previously

indicated, Appellant’s opening brief is dedicated to accu­
sing the Dover Police Department of various crimes and
civil rights violations, and complaining that “[t]here is
2 White v. State, 919 A.2d 562 (Del. 2007).
3 Bryant v. Way, 2012 WL 4086167, at *5 (Del. Super. Sept. 14,
2012).
4 Flamer v. State, 956 A.2d 130, 134 (Del. 2008). .
»Jd.

Appendix K, page 6

nothing in the CCP but the endless corruption and
systematic denial of justice.” As indicated above, this
Court’s scrutiny is limited to a review of the order that
has been appealed.

However, Appellant has failed to

cite any authority relating to Rule 60(b), much less any
authority indicating that the CCP’s denial of her motion
constituted an abuse of discretion. The Court considers
Appellant’s failure to marshal relevant facts and
authority to constitute waiver of the issue of abuse of
discretion on appeal and necessitate affirmation of the
CCP’s order.

Nonetheless, the Court now turns to

consider whether the CCP judge abuse his discretion.
This Court has reviewed Appellant’s motion to join AllState as an indispensible party as well as her motion for
reargument of the CCP’s denial of that motion, and
agrees with the CCP that the arguments presented
therein are substantially identical, and that denial of
the motion for reargument was not improper.6 The Court
Appendix K, page 7

has also reviewed Appellant’s 60(b) motion and has
found that Appellant

did not carry her burden

demonstrating extraordinary circumstances justifying
relief.
Further, Appellant did not appeal the CCP denial of her
motion to join All-State or the Court’s denial of reargument, .but instead filed a Rule 60(b) motion as an
improper substitute for a timely-filed appeal.7 The CCP
did not err or abuse its discretion in denying that
motion.
WHEREFORE,

for the foregoing reasons, the CCP’

decision denying relief from judgment pursuant to Court
of Common Pleas Civil Rule 60(b) is AFFIRMED.
IT IS SO ORDERED.
6 Umphenour v. O’Connor, 2011 WL 2671916, at *1 (Del. Com. PI.
July 1, 2011).
’ See White, 2007 WL 604723 at *1.

/s/Noel Eason Primos
Noel Eason Primos, Judge

NEP/wjs
oc: Prothonotary
xc: Nina Shahin
Scott G. Wilcox, Esquire
Appendix K, page 8

IN THE SUPERIOR COURT OF THE STATE OF
DELAWARE
IN AND FOR KENT COUNTY
*
*
*

NINA SHAHIN,
Appellant,

* K17A-12-004 NEP

V.

DOVER POLICE OFFICER,
DALE BONEY, AND STATE
FARM AUTOMOBILE
INSURANCE CO.,
Respondents-Appellees.

*
*
*

*
*
*
*

*

APPELLANT’S MOTION FOR EXTENSION OF TIME
TO FILE HER ANSWERING BRIEF
Appellant represents herself in pro se representation:
NINA SHAHIN, CPA, MAS, MST
103 Shinnecock Rd.
Dover, DE 19904
(302) 526-2152
Attorneys representing Respondents:
1) Respondent - Dale Boney - Scott G. Wilcox
WHITEFORD TAYLOR PRESTON
The Renaissance Center
405 North Kang St., Suite 500
Wilmington, DE 19801
302-357-3255
Appendix L, page 1

2) Respondent - State Farm Auto Ins. Co.
Miranda D. Clifton
YOUNG & MCNELIS
300 South State St.,
Dover, DE 19901
302-674-8822
Appellant, Nina Shahin, thereby files her Motion for
extension of time to file her Reply Brief because of the
following circumstances:
S "*.*'**

•

.

\

•

r

*'

,

»

i

-

*'

*

.

Answering Brief for the Respondent, Officer Dale

Boney, was due March 5, 2018, deadline, which was not
met by the attorney representing the Officer Dale
Boney, Daniel A. Griffith.
professional

It is again the case where

attorney

commits

professional

incompetence “due to excusable negligence” and is not
penalized but is replaced by another attorney.
•

Then

come

professional

dishonesty,

lies

and

misrepresentations. New attorney, Mr. Scott G. Wilcox,
claimed that “Mrs. Shahin will not be prejudiced at all if
the Court allows the one day extension.” This is an obAppendix L, page 2

noxious lie in view of all the circumstances following
that

extension.

That

particular

Mr.

Cox’s

communication from which this quotation is taken is
dated March 7, 2018, mailed the following day, i.e.,
March 8, 2018 (Thursday) and received by the Appellant
on March 12, 2018 (Monday). His Answering Brief was
dated March 6, 2018, mailed from Baltimore on March
8, 2018 and received by the Appellant on March 13,
2018 (Tuesday), see copy of the envelope in Exhibit A.
•

Judge’s decision dated March 6, 2018 has a stamp of

mailing as March 7, 2018 (Wednesday) but received also
on Monday March 12, 2018. This raises a question of
whether the envelope stamped with Pitney Bowes
private mailing stamping machine was actually mailed
on that date?! The envelope does not have as usual a
post office actual date-stamp of mailing (see

copy in

Exhibit B). So, the only day extension turned out to be
a week delay of receiving by the Appellant of both the
Appendix L, page 3

Motion for Extension and the Court’s decision granting
it which hardly can be claimed as not “prejudicial.”
•

Taking into consideration that the Appellant has to

file her Reply Brief on the same date of March 19, 2018
in another case (case # K18A-01-001) Appellant has
been prejudiced by the actions of the Court and to
professional attorneys. In view of these facts Appellant
timely-asks this Court to grant this Motion and extend
the deadline for filing her Reply Brief until March 26,
2018.
Respectfully submitted on this Fifteenth Day of March
2018.
For the appellant, /s/Nina Shahin
NINA SHAHIN, CPA, MAS, MST
103 Shinnecock Rd.
Dover, DE 19904

Appendix L, page 4

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
NINA SHAHIN,
Plaintiff,
v.

Civil Action No. 17-413-LPS
Court of Common Pleas of
DALE BONEY, et al.,
of the State of Delaware in
and for Kent County
Defendants. : C.A. No.CPU5-14-000682

Nina Shahin, Dover, Delaware. Pro Se Plaintiff.
Daniel A. Griffith, Esquire, Whiteford, Taylor &
Preston, L.L.C., Wilmington, Delaware. Counsel for
Dale Boney
MEMORANDUM OPINION
/s/ STARK, U.S. District Judge:
' Plaintiff Nina Shahin (“Shahin”), who proceeds pro se
filed a formal petition for transfer of a case she filed in
the Court of Common Pleas for the State of Delaware in
and for Kent County, Shahin v. Boney, C.A. No. CPU514-000682. (D.I. 1) The petition was docketed as a notice
of removal. For the reasons discussed below, the Court
Appendix M, page 1

will summarily remand the case to the Court of
Common Pleas for the State of Delaware in and for Kent
County.

I. FACTUAL AND PROCEDURAL BACKGROUND
Shahin filed this case in the Court of Common Pleas in
September
(“Boney”)

2014
and

against Defendants

State

Dale

Farm Automobile

Boney

Insurance

Company (“State Farm”). (P.I. 1) She alleged that
Boney, a police officer for the City of Dover, issued her a
citation and fabricated a police report that caused State
Farm to deny Shahin’s claim for reimbursement for
damages caused to her vehicle as a result of an accident
between Shahin and another driver. (See D.I. 9-1 at 2).
On April 13, 2016, the Court of Common Pleas granted
Boney’s motion to dismiss by reason of immunity under
the County and Municipal Tort Claims Act, 10 Del.C.
§4011. Thereafter, Shahin filed a motion for relief from
judgment and requested a transfer of the matter to this
Appendix M, page 2

Court pursuant to 10 Del.C. § 1902. (D.I. 13-5 at 2-8).
On July 19, 2016, the Court of Common Pleas denied
both the motion and the request. ((See id.) The Court of
Common Pleas stated that, “the plaintiffs claim has
been adjudicated and based on the fact of the Complaint
and the law, the Court had subject matter jurisdiction
over the plaintiffs claim. Further, the plaintiff failed to
follow the proper procedure for bringing her claim in
federal court.” (Id. at 6)
Next, on August 19, 2016, Shahin filed a “motion
‘election’ for initiation of the process to transfer the case
to federal court...under 10 Del.C. § 1902 and 42 U.S.C.
§1983.” (D.I. 13-6 at 2-9). On January 23, 2017, the
Court of Common Pleas denied Shahin’s “election,”
noting that the claim against Boney had been dismissed
and there is no claim to transfer. (D.I. 13-7 at 2-3). In
addition, the Court of Common Pleas explained that 10
• Del.C. § 1902 “only provides an avenue of relief for the
Appendix M, page 3

transfer of civil cases between State courts for lack of
civil jurisdiction. Section 1902 does not provide for the
transfer of cases to federal courts.” (Id. at 3). Shahin
moved for reconsideration. (Id. at 4-8).

On March 28,

2017, the Court of Common Pleas denied the motion for
reconsideration of the denial of transfer. (Id. at 9).
Shahin then filed the petition to transfer (filed as a
notice of removal on April 11, 2017). (D.I. 1). However,
she continued with her filings in State court.

Shahin

filed a motion for reargument on hesr request .to join an
additional party, which was denied by the State Court
on July 11, 2017. (D.I. 13-8 at 1). Shahin filed a motion
for relief from judgment on July 31, 2017, which was
denied by the Court of Common Pleas on November 30,
2017. (Id. at 2-4). At that point, the Court of Common
Pleas advised Shahin that it would not consider further
motions made by her in the action and advised the only
avenue left was an appeal to the Superior Court. (Id. at
Appendix M, page 4

4). Shahin filed a notice of appeal to the Superior Court
of the State of Delaware in and for Kent County. See
Shahin v. Boney, C.A. No. K17A-12-004 NEP. The Court
takes judicial notice that the appeal is pending and a
- briefing schedule was entered on January 18, 2018.
On July 27, 2017, counsel for Boney advised the Court
that, “it seems that an improperly filed letter by an
aggrieved Plaintiff in a state court action was accepted
as a “Notice of Removal” to this court.” (D.I. 9). The
Court construed the letter as a motion to remand.
Shahin responded by filing a motion for leave of Court to
file amendments to her original complaint by adding a
second defendant, City of Dover. (D.I. 11). Next, Shahin
filed a motion for sanctions against defense counsel.
(D.I. 12). On December 12, 2017, Boney filed a motion
to dismiss. (D.I. 13). Shahin responded to the motion on
February 12, to which Boney replied on March 9. (D.I.
17, 19). On February 12, Shahin also filed an amended
Appendix M, page 5

notice of transfer. (D.I. 15, 16).
II. LEGAL STANDARDS
The exercise of removal jurisdiction is governed by 28
U.S.C. § 1441(a), which states that

“[ejxcept as

otherwise expressly provided by Act of Congress, any
civil action brought in a State court of which the district
courts pf the United States have original jurisdiction,
may removed by the defendant or the defendants, to the
district court of the United States for the district and
division embracing the place where such action is
pending.” In order to remove a civil action from state
court to federal court, a district court must have original
jurisdiction by either a federal question or diversity of
citizenship.

See 28 U.S.C. §§ 1331, 1332, 1441(a).

Sections 1441(a) and 1443 both provide that the action
may removed by the defendant to the district court of
the United States. See id. at §§ 1441(a) and 1446. The
removal statutes are strictly construed, and require
Appendix M, page 6

remand to State court if any doubt exists over whether
removal was proper. See Shamrock Oil & Gas Corp. v.
Sheets, 313 U.S. 100, 104 (1941).
A court will remand a removed case “if at any time fore
final judgment it appears that the district court lack
subject matter jurisdiction.” 18 U.S.C. § 1447(c).

The

party seeking removal bears the burden to establish
federal jurisdiction.

See Steel Valley Auth. v. Union

Switch & Signal Div. Am. Standard, Inc., 809 F.2d
1006, 1010 (3d Cir. 1987); Zoren v. Genesis Energy, L.P.,
F. Supp. 2d 598, 602 (D.Del. 2002).
whether

remand

based

on

In determining

improper

removal

is

appropriate, the court “must focus on the plaintiffs
complaint at the time the petition for removal was filed,”
and assume all factual allegations therein are true.
Steel Valley Auth.,

809 F.2d at 1010.

Upon a

determination that a federal court lack subject matter
jurisdiction, the District Court is obligated to remand,
Appendix M, page 7

sua sponte, to the State court from which it was
removed. See Scott v. New York Admin. For Children’s
Services, 678 F. App’x 56 (3d Cir. Feb. 28, 2017).
II.

DISCUSSION

Shahin’s removal fails for a number of reasons. Fisrt,
the removal statutes are construed narrowly, and
doubts about removal are resolved in favor of remand.
Second, removal by a plaintiff is not contemplated by 28
U.S.C. § 1446(a). By its plain language, the removal
statute, limits the rights of removal to the “defendant” or
“defendants.” Gross v. Deberardinis, 722 F. Supp. 2d
532, 534 (D.Del. 2010). Third, Shahin filed her petition
for transfer, construed as a notice of removal well
beyond the 30 days allowed by § 1446(b). Fourth, the
Court

of

Common

Pleas

construed

Shahin’s

Complaint (see D.I. 19-1) as raisins a civil tort
action findins no claim of violation of federal law
pursuant to 42 U.S.C. 8 1983. and save no weisht to
Appendix M, page 8

Shahin’s arsument in that resards. (Emphasis
added by Petitioner NS) (D.I. 9-1 at 2, 3 n. 1). There is
also not complete diversity among the parties and,
therefore, jurisdiction does not lie under 28 U.S.C.
§1332. Fifth, to the extent Shahin contends jurisdiction
lies by reason of a federal question (although her
position has been rejected), the removal statute provides
that “all defendants” who have been properly joined and
served must join in or consent to the removal of the
action. See e.g., Auld v. Auld, 553 F. App’x 807 (10th Cir.
Jan. 29, 2014) (removal defective when removing party
clearly “lacked on objectively reasonable basis for
seeking removal”); Anderson v. Toomey, L.P., 2008 WL
4838139, at *3 (D. Utah Nov. 4, 2008) (only defendant
may remove to federal court).

It is unclear if both

defendants even appeared in the Court of common
Pleas.

Even if they did, the record is devoid of any

demonstration that they both joined in or consented to
Appendix M, page 9

the removal. Sixth, there is nothing left to remove. As
stated succinctly by the Court of Common Plea when
denying Shahin’s numerous requests to transfer this
case from the court of Common Pleas to this Court,
“there is no claim against Boney to transfer.”
The Court of Common Pleas case is not properly before
this Court.
IV. CONCLUSION
•i

-

For the above reasons, the Court will summarily
remand the case to the Court of Common Pleas of the
State of Delaware in and for Kent County. All pending
motions will be denied as moot. (D.I. 11, 12, 13)
An appropriate Order will be entered.

Appendix M, page 10

IN THE UNITED STATE DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
NINA SHAHIN,
Plaintiff,
Civil Action No. 17-413-LPS
Court of Common Pleas of
the State of Delaware in and
for Kent County
C.A. No. CPU5-14-000682

v.
DALE BONEY, et al„
Defendants.

ORDER
At Wilmington this 13th Day of March, 2018 for the
reasons set forth in the memorandum opinion issued
this date;
IT IS HEREBY ORDERED that:
1. All pending motions are DENIED as moot. (D.I. 11,
12, 13)
2. The case is SUMMARILY REMANDED to the Court
of Common Pleas of the State of Delaware in and for
Kent County. The clerk of Court is directed to mail a
certified copy of the remand Order to the State court.
/s/ Leonard P. Stark
UNITED STATES DISTRICT JUDGE
Appendix M, page 11

WHITEFORD, TAYLOR & PRESTON L.L.C.
THE REIAISSANCE CENTRE, SUITE 500
405 NORTH KING STREET
WILMINGTON, DE 19801-3700
MAIN TELEPHONE (302) 353-4144
FACSIMILE (302)661-7650
SCOTT G. WILCOX
COUNSEL
Direct Line (302) 357-3255
Direct Fax (302) 357-3275
swilcox@wtplaw.com
March 7, 2018
RE: Nina Shahin v. Officer dale Boney and State
Farm Insurance Co., C.A. No. K17A-12-004 NEP
Dear Judge Primos:
I represent Defendant City of Dover Police Officer Dale
Boney in the referenced case. This matter comes to the
Court on appeal from the Court of Common Pleas. After
obtaining the record from the Court of Common Pleas,
the Court set a briefing schedule. Office Boney was to
file his Answering Briefs by March 5, 2018.

At the

time, Officer Boney was responding to several, different
matters filed by Ms. Shahin including this appeal and
Appendix N, page 1

an Amended request for transfer of the case to the
• Federal District Court.

In her filings, Mrs. Shahin

provides a detailed history of various cases she has filed
in both State and Federal Court and asserted several
claims against the Dover Police Department and Officer
Boney. She relied on various legal theories in each of
the filings. Officer Boney had to research and address
each of Mrs. Shahin’s claims.

Ultimately, counsel for

Officer Boney failed to recognize that the date for filing
the Answering brief in this Court had passed. As such.
he filed a motion for an extension of one day to file his
Answering Brief (which was filed on March 6, 2018).
As the Court is aware, Delaware has a strong public
policy that favors deciding vases on the merits.
Battaglia v. Wilmington Sav. Fund Soc’y, 379 A.2d 1132,
1135 (Del. 1977); Model Fin. Co. v. Barton, 188 A2d 233
(Del. Super. 1963); Kaiser-Frazer Corp v. Eaton, 101
A.2d 345 (Del. Super. 1953). Courts apply rules with liAppendix N, page 2

beral construction because of the underlying public
policy that favors a trial on the merits, as distinguished
from a judgment based on a default. Id. This Court has
control of its scheduling orders and is free to adjust
them as it deems fit and reasonable.
In the instant case, Officer Boney’s Answering Brief was
not file on time due to excusable negligent by counsel. I
simply failed to recognize the date set by the Court was
March 5, 208 until that date passed. In Officer Boney’s
Answering

Brief

he

asserts

several

meritorious

arguments in opposition to Mrs. Shahin’s appeal which
should be considered.

Mrs. Shahin will not be

prejudiced at all if the Court allows the one day
extension.

The date for filing her Reply Brief can

similarly be extended additional time, if necessary. As
such, Officer Boney respectfully requests that the Court
grant the extension of one day, accept his Answering
Brief and decide this appeal on the merits.
Appendix N, page 3

I apologize to the Court and Mrs. Shahin for my error
and I am available at the call of the Court to discuss this
matter further.
Respectfully submitted,

Is/ Scott G. Wilcox
Scott G. Wilcox (#3882)

cc: Nina Shahin (via certified mail to 103 Shinnecock
Road, Dover, DE 19904)

Appendix N, page 4

IN THE COURT OF COMMON PLEASFOR THE
STATE OF DELAWARE IN AND FOR KENT
COUNTY
NINA SHAHIN,

)
)

Plaintiff,
v.

)
)

) C.A. No.:2014-CU
) 514000682

DOVER POLICE OFFICER
)
DALE BONEY, BADGE #
10216, AND STATE FARM )
MUTUAL AUTOMOBILE
)
INSURANCE COMPANY, ' )

,

'

-)

Defendants. )
PLAINTIFFS FORMAL RESPONSE TO THE
PRESIDING JUDGE’S CORRESPONDENCE OF
APRIL 13. 2017
Plaintiff, Nina Shahin, is in receipt of the Honorable
presiding Judge, Charles W. Welch’s communication
dated April 13, 2017 (copy is attached in Exhibit A)
which was mailed five days later (i.e., on April 18, 2017
and.accepted by mail one day later or on April 19, 2017,
see copy of the envelope attached in Exhibit B). The
letter mandated response within twenty days (sic!)
Appendix O, page 1

Plaintiff was overseas for three weeks flying out of USA
on April 12, 2017, returning on May 4, 2017, and
receiving her accumulated mail on May 5, 2017 (see
copy of her and her husband’s e-ticket attached in
Exhibit C). Just these facts raise a serious question of
the Honorable Judge’s actual intentions!
The

first

paragraph

of

the

Honorable

Judge’s

communication stated the following:
“The Court is in receipt of your communication dated
April 11, 2017, for the above-referenced matter which
was filed with the Court o the same date. In your
correspondence, you question the mailing of the “sub­
stitution of Counsel” by the Court and not the attorney.
You also stated that ‘[i]t appears that when one attorney
lied to Court and presented fraudulent documents there
is no punishment for professional attorneys and the
Court covers up for those lapses of Rules of Professional
Conduct by accepting those substitutions.” You further
allege that the Court is disregarding rules of accepting
those substitutions.” You further allege that the Court is
disregarding rules of process and professional conduct to
cover up actions of “such official dignitaries.’”
The

second

paragraph

of the

honorable

Judge’s

communication contained warning for the alleged slanAppendix O, page 2

derous, disrespectful or threatening comments.”
In respect to the description of the first paragraph,
warning of the second and the mandate to “Show Cause”
Plaintiff formally mounts the following charges against
the presiding Honorable Judge which can be considered
as “uncivilized” although no explanations was given of
why Plaintiffs statements of facts he considers as
“slanderous, disrespectful or threatening.”,
Gross violations of her constitutional rights of due
process and equal protection.
Now the Plaintiff would consider her referenced by the
Judge “slanderous” statement in the light of the
provisions of Rule 11(b) that the Judge recited in his
another communication dated April 12, 2017

(case

CPU5-14-000379) that information [any attorney and
unrepresented party filing a pleading, written motion,
or other paper, with the Court is certifying to be the best
of their knowledge] that:
Appendix O, page 3

(1) It is not being presented for any improper purpose,
such as to harass or to cause unnecessary delay or
needless increase in the cost of litigation;
(2) The claims, defenses, and other legal contentions
therein are warranted by existing law or by a
nonfrivolous argument of new law;
(3) The allegations and other factual contentions have
evidentiary support, or if specifically so identified, are
likely to have evidentiary support after a reasonable
opportunity for further investigation or discover; and
(4) The denials of factual contentions are warranted on
the evidence, or if specifically so identified, are
reasonably based on a lack of information or belief.
In this particular case the original attorney (who is also
a Delaware Bar Vice President of Executive Committee
Solo and Small Firms, Kent County, or a “ dignitary” in
the

Honorable

Judge’s

parlance)

provided

false

document of the Plaintiff s insurance coverage and then
cited underlying material facts that had already been
established by the Kent County Court of Peace in a
fraudulent interpretation in her attempt to re-litigate
the case that had not been appealed and now is
considered as settled and legally enforceable.

Instead

of sanctioning that attorney for violations of Rule 11(b)
Appendix O, page 4

Presiding Judge

allowed

substitution for

another

counsel who is a President of Executive Committee of
the

Delaware

Bar

Executive

Committee

(another

“dignitary”). Moreover, substitution of Counsel Notice
was received from the Court and not attorney, fact not
explained by the honorable Judge!
Presiding Judge also, refused to transfer the case to the
US Federal Court although he previously mentioned
that there is a process for such a transfer but failed to
indicate what the steps of such process are.

Plaintiff

secured US District Court’s acceptance of the transfer
and simultaneously with this letter filed her Demand for
such a transfer.
All these facts provide a clear evidence of the presiding
Judge’s complete disregard to the own Court’s rules of
procedure, disregard of the Plaintiffs right of ‘equal
protection’ and ‘due process’ and provides cover —up for
“dignitaries” who are high functionaries within the DeAppendix O,page 5

j

i

I

J
laware Bar Association.
In view of these facts and the Honorable Judge’s
interpretations

Plaintiff

questions

the

Honorable

Judge’s respect for the US Constitution, underlying
material facts of this case, rules of his own Court, and
rules of ethics for the Delaware Judges and attorneys
and his use of

denigrating words as “slanderous,

disrespectful

threatening”

or

to

the

description of facts that he does not like.

Plaintiffs
In another

case (case PA5-14-000379) original attorney, Sean Lynn,
who

is

now

a

Delaware

legislator

(or

another

“dignitary”) filed entry of appearance and his “Answer”
on behalf of a wrong entity against whom no lawsuit had
been filed but Motion for sanctions for that act of
incompetence was covered up by the same Honorable
Judge, Charles W. Welch.

Moreover, the notice of

Substitution of Counsel had never been mailed to the

i

«

' Plaintiff, fact the Honorable Judge systematically disAppendix O, page 6

i
s.

'i

#

As you know, the Court has previously warned
you in this matter about the need for acceptable conduct
for litigants and attorneys during a civil action. See
Shahin v. Boney, C.A. No.: CPU5-14-00682 at 5-6 (Del.
Com. PI. July 19, 2019) (ORDER). All parties who come
before a court must conduct themselves in a civil and
courteous manner. Anyone refusing to do So may be
subject to sanctions under Court of Common Pleas Civil
Rule 11. You were advised that the Court will not
tolerate the use of abusive language and shows of
disrespect towards the Court, other parties, or the
attorneys representing them. As you were previously
advised, valid legal argument does not need to contain ,
and should pot contain, slanderous, disrespectful or
threatening comments
•

This Correspondent constitutes a Rule to Show
Cause why you should not be sanctioned by the Court
pursuant to Court of Common Pleas Civil Rule 11(b)(1)
for filing'correspondence with the Court for your abovequoted accusations which appears to be for an “improper
purpose such a to harass or to cause unnecessary delay
or needless increase in the cost of litigation.”
You are hereby ordered to file a response to this
Rule to Show Cause within twenty days.
Sincerely,
/s/ Charles W. Welch
Charles W. Welch, III
CWW:mek
pc:
Miranda D. Clifton, Esq.
Appendix P, page 2

IN THE COURT OF COMMON PLEAS FOR THE
STATE OF DELAWARE IN AND FOR KENT
COUNTY
NINA SHAHIN,
)
)

Plaintiff,
v.

)
)

DOVER POLICE OFFICER
DALE BONEY, BADGE #
10216, AND STATE FARM
MUTUAL AUTOMOBILE
)
INSURANCE COMPANY, )

) C.A. No.:2014-CU
) 514000682
)
)

)

Defendants. )
PLAINTIFFS MOTION-SELECTION” FOR
INITIATION OF THE PROCESS TO TRANSFER
THE CASE TO FEDERAL COURT FOR THE
DISTRICT OF DELAWARE UNDER 10 DEL.C.
$1902 AND 42 U.S.C. S 1983.
The presiding Judge, Honorable Charles W. Welch, III,
issued what appears to be his ‘Order’ in the abovementioned case (copy is attached) in response to the
Plaintiffs Motion filed under provisions of Rules 59(b)
and 60(b) of the CCP rules of Civil Procedure. In that
communication the

Honorable

Judge

made

some

questionable statement and claims and in response to
Appendix Q, Page 1

the Plaintiffs request to transfer the case to the US
District Court, denied that request with reference to 10
Del.C. §1902 with claim that “...the plaintiff failed to
follow the proper procedure for bringing her claim in
federal court.”
The Plaintiff, therefore, initiates by this SPECIFIC
motion-“ELECTIQN” the “proper procedure” for transfer
of the case related to,the. charges filed against the first
Defendant, Officer Dale Boney, to the US Court for the
District of Delaware leaving, the charges against the
State Farm Insurance in the State Court. To support
the Plaintiffs “election” to transfer the case in relation
to the first Defendant to the US District Court the
Plaintiff provides the following legal and factual
reasoning:
•

It is impossible to reconcile the Judge’s claim that “In

Delaware, a motion to alter or amend judgment will be
granted if the movant shows... (3) the need to correct
Appendix Q, page 2

clear error of law or to prevent manifest of
injustice.” King v. McKenna, 2015 WL 5168481, at *3
(Del. Super. Aug. 24, 2015). “[T]he Court will deny the
motion if it merely restates arguments already con­
sidered and rejected during litigation.” Id. with his
another claim that “The Plaintiffs Response raised,
for the first time, a claim under 42 U.S.C. §1983...”
(Emphasis by bold and Italics added by the Plaintiff).
•

The previous Judge’s citation ended with words “and

failed to address the immunity defense.” There was no
law cited that would indicate that in such a Motion such
a standard exists but the Plaintiff would like to clarify
that point with some other Judge’s statements related to
the Plaintiffs claim for damages under 42 U.S.C. §1983.
The Plaintiff would like to fill all the gaps in this
' “Election:”
(1) Since this section (i.e., 42 U.S.C. §1983) specifical­
ly indicated that liability exists for “deprivation of any
Appendix Q, page 3

rights,

privileges,

or

immunities

secured by

the

Constitution and laws” the facts of this case clearly
demonstrate that the Dover Police Officer, Dale Boney,
fabricated the evidence and issued citation to the
Plaintiff, although the other party was guilty in the
occurred accident in violation of ‘due process’ and ‘equal
protection’ provisions, of the . Fourteenth Amendment of
the United States Constitution. Even, if the actions of
the officer were based on the, fraudulent testimony of a
witness he had his own eyes and could have examined
the location of damages on both cars which he failed to
do.

In that regards his conduct was “arbitrary, or

conscience shocking, in a constitutional sense” Collins v.
City of Harker Heights, Texas, 503 U.S. 115, 128 (1992)
Moreover, in constituting the Due Process Clause, the
United States Supreme Court has held that negligent
acts by state actors do not effect a “deprivation” for pur­
poses of the Due Process Clause if the state provides a
Appendix Q, page 4

meaningful

post-deprivation

remedy,

such

as,

for

example, a tort remedy in its own courts. Hudson v.
-Palmer, 468 U.S. 517, 533 (1984).

In this particular

case the Court’s ‘Order’ in response to which this
“Election” has been filed specifically denied the Plaintiff
a “tort remedy” under the state law making a transfer to
a federal court a necessity.
(2) Although states and state agencies are entitled to
Eleventh Amendment immunity in federal court, local
governments have no immunity from damages flowing
from their constitutional violations, and may not assert
the good faith claims of its agents as a defense to
liability.. Owen v. City of Independence, MO, 445 U.S.
621 (1980), Monell v. Dept, of Social Services of New
York, 436 U.S. 658, 699-700 (1978).

So, Dover Police

Department does not have any immunity whatsoever.
(3) In contrast to the distinct lack of immunity avai­
lable to local governments, individual capacity defenAppendix Q, page 5

dants are protected by qualified immunity. Harlow v.
Fitzgerald, 457 U.S. 800 (1982). See also, Anderson v.
Creighton, 483 U.S. 635 (1987).
(4) Qualified immunity is a powerful tool that shields
individual officials who are performing discretionary
activities

unless

their

conduct

violates

“clearly

established statutory or constitutional rights of which a
reasonable person would haye known.” Harlow,
U.S. at 817.

451

A government official is entitled to

qualified immunity unless his “act is ..so obviously wrong
in the light of preexisting law, that only a plainly
incompetent officer or one who was knowingly violating
the law would have done such a thing.” Lassiter v.
Alabama A & M University Board of Trustees, 28 F.3d
1146, 1149 (11th Cir. 1994) (en banc).

The qualified

immunity inquiry is purely objective, the subjective
intentions of the actor is irrelevant. Crawford-El v. Brit­
ton, 523 U.S. 574 (1998); Anderson v. Creighton, 483
Appendix Q, page 6

U.S. 635, 641 (1987); Harlow v. Fitzgerald, 457 U.S. 800
(1982). In this particular case failure of the officer to
see the obvious fact (location of the damages on the
Plaintiffs car on the right not the left side of the car) is
that ‘objective’ criteria that amounts to that level of
either “negligence’ or “intentional fabrication’ that the
Justice of the Peace Judge who had previously issued
the Justice of the Peace Order (Honorable Ralph
Grappenhous) to illegally incarcerate the Plaintiff in
2012 after illegal arrest by Dover Police officers when
she was unconscious (apparently trusting police officers
on bogus charges levied against the Plaintiff) found her
in 2013 “not guilty.”
Plaintiff would question the presiding Judge’s
threats of sanctions under Rule 11 against a minority
pro se litigant whose constitutional rights of ‘due
process’ and ‘equal protection’ he systematically violates
in this and other cases. Honorable Judge systematically
Appendix Q, page 7

fails

to

sanction professional

attorneys

for

their

systematic and intentional violations of Delaware
Lawyers Rules of Professional Conduct but intends to
sanction a minority pro se litigant for her perceived but
non-existent violations which will be a clear act of
discrimination. The Judge’s claim that the Plaintiff was
not “harmed” by his almost two-year delay of the
decision, thus making filing of the Plaintiffs claim
directly in the federal court outside of statute of
limitations laughable and insulting. This claim is only
additional manifestation of the partiality of the Judge
and his discriminatory practices against the Plaintiff.
CONCLUSION
The Defendant, Dover Police Officer Dale Boney, is
liable for actual and punitive damages under provisions
of 42 U>S.C. § 1983 for deprivation of rights under color
of law by denying the Plaintiffs basic constitutional
right of ‘due process’ by intentionally falsifying evidence
Appendix Q, page 8

in his Police Report of the parking accident and pinning
the blame for the collision on the Plaintiff although she
was a victim not a perpetrator of the accident and thus
denying her right for damages cause to her car. Plaintiff
provided in this “Election” sufficient legal background
for the transfer of the case to the US Court for the
District of Delaware for deprivation of rights under color
of law.

Plaintiff specifically require the Court to

promptly issue its decision on this “Election” and
provide determination of any “discharge costs accrued”
to the CCP so that those are paid to enable the Plaintiff
to make a deposit to a federal court for filing fee there
under provisions of 10 Del.C. §1902. The case is the
evidence of a systematic and intentional Dover Police
Department harassment of the Plaintiff that started in
2012 with her illegal arrest, illegal incarceration,
beatings and torture in prison.

Appendix Q, page 9

Respectfully submitted on this Nineteenth Day of
August, 2016,
For the Plaintiff, /s/ Nina Shahin
Nina Shahin
103 Shinnecock Rd.
Dover, DE 19904
(302) 526-2152

•s .

Appendix Q, page 10

COURT OF COMMON PLEAS
FOR THE STATE OF DELAWARE
KENT COUNTY COURTHOUSE
38 THE GREEN
DOVER, DELAWARE 19901
PHONE: (302)735-3910
CHARLES W. WELCH, III
JUDGE
July 19, 2016
Ms. Nina Shahin
103 Shinnecock Rd.
Dover, DE 19904

Daniel A. Griffith, Esq.
Whiteford, Taylor & Preston, LLC
The Renaissance Ctr., Suite 500
405 North King Street
Wilmington, DE 19801

RE: Nina Shahin v. Dover Police Officer Dale Boney,
Badge #10216, et al.
Decision on Plaintiffs Rule 59(d) Motion to Alter or
Amend Judgment
Dear Ms. Shahin and Mr. Griffith:
The Court is in receipt of the Motion to Alter and
Amend Judgment and, in the alternative, Motion for
Relief from Judgment that has been filed by the
plaintiff, Nina Shahin, for this matter.

The motions

were filed pursuant to Court of Common Pleas Civil
Appendix R, page 1

Rules 59(d) and 60(b).1 “Regardless how it is styled, a
motion filed within ten days of entry of judgment
questioning the correctness of a judgment may be
treated as a motion to alter or amend the judgment
under Rule 59 [(d)].”2 The Court will not consider the
plaintiffs motion under Rule 60(b).

The Plaintiffs

Motion will be treated pursuant to R,ule 59(d) because
the motion was filed within 10 days after entry of
judgment, does not state or rely on any proper grounds
under Rule 60(b), solely relies on arguments raised
under Rule 59(d), and the motion, in substance,
questions the correctness of the Court’s judgment. After
careful consideration by the Court, the plaintiffs Motion

1 Plaintiffs motion cited to Rule 59(b) of the Court of Common Pleas
Rule 59(b) addresses motions for a new trial.
Civil Rules.
However, in her motion, Plaintiff titled the motion as a motion to
alter or amend judgment which is normally made under Rule 59(d).
2 Rankin v. Heckler, 761 F.2d 936, 942 (3d Cir. 1985); see also
Desmond v. Super. Ct. of Del., 2016 WL 559404, at *2 n.l (D. Del.
Feb. 12, 2016) (Petitioner’s Motion to Alter or Amend Judgment
and Motion for Relief was treated by the Court as a motion to alter
or amend judgment).

Appendix R,page 2

to Alter and Amend Judgment is denied for the reasons
provided below.
FACTS
On or about September 3, 2014, the plaintiff filed a civil
tort action against the defendants, State Farm Mutual
Automobile Insurance Co., and Officer Dale Boney
(“Boney”.

In her complaint, the plaintiff alleged that

Boney caused her damages when he issued her a
citation and fabricated a police report that caused State
Farm to deny her claim for reimbursement for damages
caused to her vehicle by an automobile accident. The.
defendant, Officer Dale Boney, filed a motion to dismiss
the plaintiffs claim against him, contending that he is
immune from liability under The County Tort Claims
Act, 10 Del.C. § 4011.
On December 15, 2015, the Court entered an order
requesting additional argument from the plaintiff as to
her position on Officer Dale Boney’s immunity defense
Appendix R, page 3

under the County and Municipal Tort Claims Act. The
plaintiffs Response raised, for the first time, a claim
under 42 U.S.C. § 1983 and failed to address the
immunity defense.
On April 13, 2016, the Court entered its Order granting
the defendant’s Motion to Dismiss pursuant to 10 Del.C.
§40,11.3

Thereafter, the plaintiff filed the instant

motion.

The plaintiff seeks to alter or amend the

Court’s April 13, 2016, Order granting the defendant’s
Motion to Dismiss.
STANDARD OF REVIEW
In Delaware, a motion to alter or amend judgment will
be granted if the movant shows: “(1) an intervening
change in controlling law; (2) the availability of new
evidence; or (3) the need to correct clear error of law or
to prevent manifest of injustice.” King v. McKenna, 2015

3 See Shahin v. Boney, 2016 WL 3152575 (Del. Com. PI. Apr. 13,
2016).
Appendix R, page 4

WL 5168481, at *3 (Del. Super. Aug. 24, 2015). “[T]he
Court will deny the motion if it merely restates
arguments already considered and rejected during
litigation.” Id.
DISCUSSION
By her motion, the plaintiff seeks to alter or amend the
Court’s disposition as to her claim against Officer Dale
Boney. In her motion, the plaintiff raises the following
arguments: (1) the Court’s first action was made one
year and three months since the plaintiffs filing and,
therefore, the Court failed to timely prosecute her claim;
(2) in the Court’s Letter Opinion, the Court failed to
take any disposition as to the defendant, State Farm; (3)
the Court failed to hold a pre-trial hearing to determine
all the facts and legal responsibilities and, therefore, the
Court made a decision without any hearing or calling of
witnesses, which is a questionable legal procedure; and
(4)the Court, in its decision, failed to state the standards
Appendix R, page 5

of applicable law under which the case has been filed.
In

this

instant

matter,

the

plaintiff

has

not

demonstrated any of the requirements for Civil Rule
59(d) relief. In her motion, the plaintiff has not alleged
new evidence or change in controlling law.

However,

based on the arguments raised in the plaintiffs motion,
the motion may be construed a? asserting a claim to
alter or amend judgment to correct clear error of law.or
to prevent manifest of injustice.
First, the plaintiff argues that the Court should alter or
amend its decision due to clear error of law or manifest
injustice because the Court’s Order dismissing her claim
against the defendant was entered one year and three
months after she filed her claim. The plaintiff does not
state any law to support her claim nor does she show
that she suffered any prejudice due to the delay of the
Court’s adjudication of her claim.

Furthermore, any

delay in the disposition of the plaintiffs claim is partly
Appendix R, page 6

attributable to the number of motions and pleadings
filed by the plaintiff in this case that the court has had
to review and consider.
Next, the plaintiff contends that the Court failed to
provide any disposition for the defendant, State Farm.
Again, the plaintiff fails to show that there was a clear
error of law or manifest of injustice.

This claim is

meritless because the Court did not “fail” to provide a
disposition as to her claim against State Farm.

State

Farm did not file a motion to dismiss and, therefore, no
disposition has been required to date.
The plaintiff further asserts that the court failed to hold
a pre-trial hearing to determine all the facts and legal
responsibilities and, therefore, made a decision without
any hearing or calling of witnesses, which is a
questionable legal procedure.

This claim is also

meritless. Under Court of Common Pleas Civil Rule
16(c), the Court is not mandated, but, has discretion as
Appendix R,page 7

to whether to hold a pre-trial conference.

Civil Rule

16(c) states the following:
Pre-Trial Conferences. In any action, the Court may
in its discretion direct the attorneys for the parties and
any unrepresented parties to appear before it for a
conference to consider: (1) The simplification of the
issues: (2) The necessity or desirability of amendments
to the pleadings; (3) The possibility of obtaining
admissions of fact and of documents which will avoid
unnecessary proof; (4) The limitation of the number of
expert, witnesses; (5)The advisability of a preliminary
reference of issues to a Commissioner for findings to be
used ass evidence at trial; (6) The selection of an ADR
resolution method, appointment of an ADR Practitioner,
or to otherwise facilitate- ADR resolution when the
parties have been unable to do so in accordance with
Rule 16(a); (7) Such other matters as may aid in the
disposition of the action. ,
•’
-

'

•f

\

.

v

.

• •

.

Furthermore, the Court followed the proper legal
procedure under the standard of review for a motion to
dismiss.

Under such standard, the Court is only

required to examine the Complaint, accept all wellpleaded allegations as true, and determine whether the
plaintiff may recover under any' reasonably conceivable
set of circumstances susceptible of proof. Morabito v.Del.
Appendix R, page 8

Sleep Disorder Ctrs., LLC, 2015 WL 3882609, at *2 (Del.
Super. June 23, 2015) (citations omitted).
The plaintiffs final assertion is that the Court, in its
Opinion, failed to state the standards of applicable law
under which the case been filed.

The plaintiff claims

that the applicable law was 42 U.S.C. § 1983, civil action
for deprivation of rights.4 To state a claim under 42
U.S.C. § 1983, a plaintiff must allege “the violation of a
right secured by the Constitution or law of the United
States and must show that the alleged deprivation was
committed by a person acting under the color of state
law.” Milbourne v. Beecher, et al, 2016 WL 3583796, at
*2 (D.Del. June 30, 2016). Court of Common Pleas Civil
Rule 8(a) requires the Complaint to contain “(1) a short

4 “Every person who, under color of any statute, ordinance,
regulation, custom, or usage, of any State or Territory or the
District of Columbia, subjects, or causes to be subjected, any citizen
of the United States or other person within the jurisdiction
therefore to the deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to the party
injured in an action at law, suit, in equity, or other proper
proceeding for redress...” 42 U.S.C. § 1983.

Appendix R, page 9

and plain statement of the claim that the pleader is
entitled to relief and (2) a demand for judgment for the
relief to which the party deems itself entitled.” Nowhere
in the plaintiffs Complaint does the plaintiff allege a
violation of a Constitutional right or right secure by law.
The first mention of a 42 U.S.C. § 1983 was addressed in
the plaintiffs Response to the Court’s Order for
additional

argument

concerning

the

defendant’s

immunity defense under The County and Municipal
Tort Claims Act.

The Court disregarded the

plaintiffs 42 U.S.C. IS1983 claim because it was
improper and outside the scope of the Court’s
Order. (Emphasis by Italics, bold and underlying was
added by the Petitioner NS). The proper course was for
the plaintiff to file a motion to amend pleadings.
However, the plaintiff failed to do so and now seeks to
alter or amend the Court’s judgment due to her own
mishap. The County and Municipal Tort Claim Act, 10
Appendix R, page 10

Del.C. § 4011, was the proper applicable law upon which
the Court has made its decision to dismiss Boney from
the case.
Finally, the Court wishes to address the plaintiffs
request to transfer the case to the United States District
Court for the District of Delaware pursuant to 10 Del.C.
§1902.5 In threatening and disrespectful language, the
plaintiff demands transfer of the case “to avoid
accusation of violating the Plaintiffs constitutional
rights of ‘due process’ and ‘equal protection’ because of
his [the Court’s] professional dishonesty and collusion
with professional attorney representing Defendants and
bias and discrimination against the national minority,
pro se litigant [sic].”
The plaintiffs request is denied.

The plaintiffs claim

has been adjudicated and based on the face of the
Complaint and the law, the Court had subject matter ju-

5§ 1902. Removal of actions from courts lacking jurisdiction.

Appendix R, page 11

risdiction over the plaintiffs claim. Furthermore, the
plaintiff failed to follow the proper procedure for
bringing her claim in federal court.

Therefore, the

request must be denied.
Finally, the Court would like to remind the plaintiff that
the Court will not tolerate the use of abusive language
add shows of disrespect towards the Court, other
parties, or the attorneys representing them. All parties
who come, before this Court should conduct themselves
in a civil and courteous manner. Anyone refusing to dfo
so may be subject to Court or Common Pleas Civil Rule
11 sanctions. The Court, and all litigants, in this matter
have been professional and courteous to the plaintiff. It
expects the same courtesy from her.

Valid legal

argument does not need to contain, and should not
contain,

slanderous,

disrespectful

and

comments.

Appendix R, page 12

threatening

CONCLUSION
For the foregoing reasons, the plaintiffs Motion to Alter
or Amend Judgment is DENIED. The plaintiffs request
to transfer case to the united States District Court for
the District of Delaware pursuant to 10 Del.C. § 1902 is
DENIED.
IT IS SO ORDERED this 19th dav of July, 2016.
Sincerely, /s/ Charles W. Welch. Ill
Charles W. Welch, III

CWW:mek

Appendix R, page 13

IN THE COURT OF COMMON PLEASFOR THE
STATE OF DELAWARE IN AND FOR KENT
COUNTY
NINA SHAHIN,

)
)

Plaintiff,
v.

)
)

) C.A. No.:2014-CU
DOVER POLICE OFFICER ) 514000682
DALE BONEY, BADGE #
)
10216, AND STATE FARM )
MUTUAL AUTOMOBILE „ )
INSURANCE COMPANY, -A )
. )

Defendants. )
PLAINTIFFS MOTION FILED UNDER
PROVISIONS OF RULES 59(b) AND 60(b) OF CCP
RULES OF CIVIL PROCEUDRE
The Plaintiff, Nina Shahin, thereby filed her Motion
under provisions of Rules 59(b) ‘Motion to alter or
amend a judgment’ arid 60(b) ‘Relief from judgment or
order’ because of “Mistake, inadvertence, excusable
neglect; newly discovered evidence; fraud, etc.” for relief
from and amendment of what appears to be the Court of
Cpmmon Pleas judgment (albeit in the form of a letter)
Appendix S, page 1

issued on April 13, 2016, mailed two days later (i.e., on
April 15, 2016, see copy of the “judgment” in Exhibit A
and a copy of the envelope in Exhibit B) for the
following intentional omissions and neglects:
•

By the Court’s another personal correspondence

dated December 15, 2015, the Plaintiff was ordered to
respond to the Defendant, Officer Boney’s argument
that he is immune from the suit under 10 Del. C. § 4011
within twenty days. On 12/29/2015 Plaintiff complied
and indicated that the officer deprived her of her right
under color of law (42 U.S.C. § 1983) when her falsified
the evidence in a parking accident that had occurred in
September of 2013. Attorney for the Defendant, Mr.
Daniel Griffith, filed his objections to that clarification
on January 26, 2016. In the Court’s ‘judgment’ there is
not a ward mentioned about that statute.

The

Honorable Judge did not even bother to rehash the
attorney’s argument because it was difficult for him to
Appendix S, page 2

argue about two-year “statute of limitations” when the
lawsuit had been filed on the first anniversary of the
accident (i.e., September 3, 2014) and the Judge’s first
action was made one year and three months later (i.e.,
on December 15, 2015). So much for the justice in the
Delaware Court of Common Pleas that was supposed to
get promptly.
• . The Court “judgment” abridged to. the title of the
case and “et al.” failing to mention the second
Defendant, State Farm Mutual Automobile Insurance
Company, specifically to eliminate the name of the
Defendant against whom the Court’s judgment failed to
indicate any disposition. Attorney for that Defendant,
who filed her “Entry of Appearance” and “Answer” on
behalf of the
consideration

Defendant too
any

actions

on

late

to

take

her

part,

in

into
her

communication to the Court of January 26, 2016 (copy
in Exhibit C) fraudulently indicated that “there is no
Appendix S, page 3

coverage for Plaintiff Shahin.”
•

Both attorneys on many occasions asked the Court to

hold hearing in this case to determine all the facts and
the

associated

legal

responsibilities

of everybody

involved in the accident and the police report related to
that accident which the presiding Judge decided to
ignore citing facts without any hearing or calling
witnesses which is a questionable legal procedure.
All these glaring intentional omissions and negligence in
the Court’s failure to timely prosecute the Plaintiffs
claim and failure to mention the standards of applicable
law under which the case had been filed demand the
Judge to ALTER and AMEND his judgment or, in the
alternative, to transfer the case to the US Court for the
District of Delaware (because it was timely filed in the
CCP) to avoid accusation of violating the Plaintiffs
constitutional

rights

of ‘due

process’

and

‘equal

protection’ because of his professional dishonesty and
Appendix S, page 4

collusion with professional

attorneys

representing

Defendants and his bias and discrimination against the
national minority, pro se litigant.
Respectfully Submitted on this Twenty First Day of
April, 2016.
For the Plaintiff, /s/ Nina Shahin
NINA SHAHIN
103 Shinnecock Rd
Dover, DE 19904
(302} 526-2152

*

r

Appendix S, page 5

l

1 -

COURT OF COMMON PLEAS
FOR THE STATE OF DELAWARE
KENT COUNTY COURTHOUSE
38 THE GREEN
DOVER, DELAWARE 19901
PHONE: (302)735-3910
CHARLES W. WELCH, III
JUDGE
April 13, 2016
Mrs. Nina Shahin
Daniel A. Griffith, Esq.
103
Shinnecock Rd.
Whiteford, Taylor & Preston, LLC
The Renaissance Centre, Suite 500 Dover, DE 19904
405 North King Street
Wilmington, DE 19801
RE:

Nina Shahin v. Dover Police Officer Dale Boney,
Badge # 10216, et al.
C.A. No.: CPU5-14-000682
Decision on Defendant Dover Police Officer Dale
Boney’s Motion to Dismiss

Dear Mr. Griffith and Mrs. Shahin:
The Court has reviewed the Motion to Dismiss filed for
the above-referenced matter by Defendant Officer Dale
Boney (“Boney”) of the Dover Police Department. The
motion was filed pursuant to Court of common Pleas
Civil Rule 12(b)(6). After a thorough examination of the
file for this matter by the court, including all of the
requisite pleadings filed by the parties, and the parties’
submissions, Boney’s motion is granted because the
plaintiff is precluded from suing Boney for damages for
the alleged torts in this action due to the County and
Municipal Tort Claims Act, 10 Del.C. §4011.
Appendix T, page 1

This civil tort action arises from a motor vehicle
accident that involved the plaintiff and another driver in
the parking lot of a grocery store. Boney, while on duty
as a police officer for the City of Dover, responded to the
scene to investigate the accident. It is alleged by the
plaintiff that Boney went inside the store for an
unspecified amount of time. Upon exiting the store, he
issued an inattentive driving citation to the plaintiff.
Subsequently, the plaintiff, Nina Shahin, filed the
instant tort action for damages against Boney. In her
Complaint, the plaintiff alleges that Boney caused her
damages when he issued a citation and fabricated a
police report that caused the State Farm Mutual
Automobile Insurance Company to . deny her claim for
reimbursement for damages caused to her vehicle in the
accident. The plaintiff contends that Boney had no idea
how the accident occurred when he wrongfully issued
her the citation and fabricated facts about the accident
in his police report. In support of her allegations, the
plaintiff contends that the police report contained
erroneous information regarding the damage to her
vehicle. Moreover, the plaintiff contends that Boney
falsified a witness because a witness failed to appear at
the Justice of the Peace Court hearing for her
inattentive driving citation. The plaintiff demands
damages in the amount of $ 188.37, to replace her right
rear bumper that was damaged in the motor vehicle
accident, and court costs. In response, Boney has filed
this Motion to Dismiss on the grounds that he is
immune from actions in tort under the County and
Municipal Tort Claims Act. 1
1 In a response to Boney’s Motion to Dismiss, the plaintiff contends
that Boney’s legal rtesponsibility falls under federal not state law.
It is the plaintiffs position that she was deprived rights under the
provisions of 42 U.S.C. §1983 because Boney denied her the basic
constitutional right of “due process.” Yet, the plaintiffs Complaint

Appendix T, page 2

STANDARD OF REVIEW
“When deciding a motion to dismiss, the Court must
examine the complaint and accept all well-pleaded
allegations as true.” Morabito v. Del. Sleep Disorder
Ctrs., LLC, 2015 WL 3882609, at *2 (Del. Super. June
23, 2015) (citation omitted). “If the facts alleged in the
complaint are sufficient to support a claim for relief, the
motion should be denied.” Id. “The test for sufficiency is
a broad one, that is, whether a plaintiff may recover
under any reasonably conceivable set of circumstances
susceptible of proof under the complaint.” Id. “An
allegation, though vague or lacking in detail, is
nevertheless ‘well-pleaded’ if it puts the opposing party
on notice of the claim being brought against it.” Id.
DISCUSSION
The County and Municipal Tort Claim Act (“Tort Claims
Act”) provides statutory immunity to all municipal,
town and county governmental entities and their
employees from suit on all tort claims. 10 Del.C. §4011.
Section 4011(a) of the Tort Claims Act reads as follows:
§4011. Immunity from suit
(a) Except as otherwise expressly provided by statute,
all governmental entities and their employees shall be
immune from suit on any and all tort claims seeking
recovery of damages. That a governmental entity has
the power to sue or to be sued, whether appearing in its
charter or statutory enablement, shall not create or be
interpreted as a waiver of the immunity in this
contains no claim of a violation of federal law pursuant to 42 U.S.C.
§1983. Therefore, the Court cannot provide any weight to her
argument in this regard.

Appendix T, page 3

subchapter.
However, where a municipal, town or county
governmental entity is immune under the Tort Claims
Act, its employee can be held personally liable for his or
her acts under § 4011(c) of the Act. Section 4011(c)
reads as follows:
§ 4011. Immunity from suit
(c) An employee may be personally liable for acts or
omissions causing property damage, bodily injury or
death in instances in which the governmental entity is
immune under this section, but only for those acts which
were not within the scope of employment or which were
performed with wanton negligence or willful and
malicious intent.
In pertinent part, a “governmental entity” means “any
municipality, town, county, administrative entity or
instrumentality created pursuant to Chapter 8 of Title
22 or Title 9, [or] any municipality created by a special
act of the General Assembly.” 10 Del.C. § 4010(2). An
“employee” means “a person acting bn behalf of a
governmental entity in any official capacity.” § 4010(1).
In the current case, the Court takes judicial notice that
the City of Dover Police Department is an agency of a
municipal corporation, the City of Dover, which has
been incorporated by the State of Delaware. “It is well
established that municipal police departments are ‘not
separate entities for the purpose of suit, but rather, are
distinct departments or' entities of the [city or
municipal] government [themselves]’.” See Gregory v.
Dover Police Dept’t, 2012 WL 6915204, at note 7 (Del.
Appendix T, page 4

Super. Dec. 31, 2012) (citing Breitigan v. State, C.A. No.
02-1333-GMS, at *4 (D.Del. 2003)). Furthermore, it is
not contested that Boney is an employee of the City of
Dover Police Department.
Acts or Omissions Causing “Property Damage,
Bodily Injury, or Death”
“An employee may be personally liable for acts or
omissions causing property damage, bodily injury or
death.” § 4011(c). The § 4011(c) exception to immunity
found in the Tort Claims act “narrowly defines both the
type of actions and the type of injuries for which
immunity is waived.” Carr v. Town of Dewey Beach, 730
F. Supp. 591, 601-02 (D. Del. 1990). A covered employee
is “only liable for ‘acts or omissions causing property
damage, bodily injury or death’.” Carr, 730 F. Supp. At
602. “Economic harm [or loss] alone does not constitute
‘property damage’ as that term is used” under the Tort
Claims Act. Dale v. Town of Elsmere, 702 A.2d 1219,
1223 (Del. 1997). “Economic loss” is defined as “any
monetary lossQ, costs of repair or replacement, loss of
employment, loss of business or employment
opportunities, loss of good will, and diminution of
value.” Brasby v. Morris, 2007 WL 949485, at *6 (Del.
Super. Mar. 2007) (citations omitted).
In Carr v. Town of Dewey Beach, the plaintiff sued for
lost profits when the defendant, the Town of Dewey
Beach and its employee, allegedly acted with malicious
intent when they issued a stop work order that delayed
the plaintiffs construction of his restaurant. Carr, 730
F. Supp. at 601. The court held that the plaintiff failed
to allege that the employee caused “property damage,
bodily injury or death” under the § 4011(c) exception to
immunity because the plaintiff only claimed that the
Appendix T, page 5

employee caused lost profits and no physical damage to
the plaintiffs property. Id. at 602.
In Dale v. Town of Elsmere, where the plaintiffs brought
a nuisance action against the Town of Elsmere and its
Mayor, the Supreme Court of Delaware adopted the
holding in Carr and held that the plaintiffs failed to
allege “property damage’ necessary to implicate the
§4011(c) exception to immunity because they only
sought compensation for loss of enjoyment and value of
their property. Dale, 702 A.2 at 1223.
In. the instant matter, the plaintiff hg.sfailed to allege
“property damage” as necessary to implicate the
§40ll(cj exception to hold Boney personally liable. The
plaintiff alleges that Boney cause her property damage
when State Farm denied her insurance claim after it
relied on Boney’s fabricated police report that states
that the plaintiff was the driver at fault in the car
accident in which she was involved. The plaintiff
demands damages from Boney in the amount of $
188.37, for damage caused by the accident to her right
rear bumper, and court costs in the amount of $ 135.00.
The court finds that the plaintiff is only claiming
economic harm or economic loss resulting from State
Farm’s denial of her insurance claim. In her Complaint,
the plaintiff does not allege that Boney caused the
physical damage to her automobile. In fact, the proper­
ty damage at issue resulted from the car accident in
which the plaintiff whs involved with another driver.
Economic harm alone without sufficient allegations that
Boney caused the physical 'damage to the plaintiffs
property does not constitute “property damage” under
the Tort Claims Act and does not satisfy the §4011(c)
exception to hold Boney personally liable. Dale, 702 A.2
at 1223. As such, the Court finds that Boney is immune
Appendix T, page 6

Jl

from his tort ac-action pursuant to 10 Del.C. 4011.
Therefore, Boney’s Motion to Dismiss is granted.
CONCLUSION
In examining the complaint and accepting all wellpleaded allegations as true, there are no reasonably
conceivable set of circumstances susceptible of proof in
which the plaintiff may recover from Boney. Therefore
Boney’s Motion to Dismiss is granted because he is
immune from this tor action pursuant to 10 Del.C.
§4011.
IT IS SO ORDERED, this 13th day of April 2016.
Sincerely, /s/ Charles W. Welch
Charles W. Welch, III

CWW: mek
pc:
Reneta L. Green-Streett, Esq.

Appendix T, page 7

IN THE COURT OF COMMON PLEAS FOR THE
STATE OF DELAWARE IN AND FOR KENT
COUNTY
NINA SHAHIN,

)
)

Plaintiff,
v.

)
)

) C.A. No.:2014-CU
) 514000682
)
)

DOVER POLICE OFFICER
DALE BONEY, BADGE #
10216, AND STATE FARM
MUTUAL AUTOMOBILE
INSURANCE,COMPANY, .i, )
Defendants. )

PLAINTIFFS ADDITIONAL RESPONSE TO
DEFENDANT’S MOTION TO DISMISS
The Plaintiff, Nina Shahin, hereby files this Additional
Response to the Defendant’s arguments and Motion to
Dismiss as it was mandated by the Court’s December
15, 2015 communication.

Police Officer Dale Boney’s

legal responsibility falls under federal not state laws. In
particular,

he

is

responsible

for

the

Plaintiffs

deprivation of rights under provisions of 42 U.S.C.
§1983 that specifically makes “every person who, under
Appendix U, page 1

color of any statute, ordinance, regulation, custom, or
usage, of any State or territory or the District of
Columbia, subjects, or causes to be subjected, any
citizen of the united States or other person within the
jurisdiction thereof to the deprivation of any rights,
privileges, or immunities secured by the Constitution
and laws, shall be liable to the party injured in an action
at law, suit in equity, or other proper proceedings for
redress...”
The Plaintiff who had been involved in a parking
accident expected the officer who was called to
investigate the accident to conduct it with all required
standards of ‘due process’ and mandated by the
Fourteenth

Amendment

of

the

United

Constitution which did not happen.

States

Instead,

the

Defendant falsified the evidence and pinned the blame
on the Plaintiff, who was the victim in the accident. In
Monroe v. Pape, 365 U.S. 167, 180 (1961), United States
Appendix U, page 2

Supreme Court held that acts performed by a police
officer in his capacity as police officer are acts taken
“under color of law.” As the Supreme Court stated in
United States v. Classic, 313 U.S. 299, 326 (1941),
‘[mjisuse of power, possessed by virtue of state law and
made possible only because the wrongdoer is clothed
with the authority of state law, is action taken “uridqr
color of state law.”

While qualified immunity,, is

available to an official sued in his personal capacity.
there is no qualified immunity available in an official
capacity suit (see Hafer v. Melo, 112 S.Ct. 358, 361-62
(1991)

(personal

and

official

capacity

suits

distinguished). Plaintiff sued Officer Dale Boney in his
official capacity as Dover Police Officer and not in his
individual capacity as just Dale Boney, so he has no any
qualified or unqualified immunity whatsoever.
Moreover, qualified immunity is a tool that shield
individual officials who are performing discretionary
• . •

•

'

: •

.

Appendix U, page 3

...

V

activities

unless

their

conduct

violates

“clearly

established statutory or constitutional rights of which a
reasonable person would have known.” See Harlow v.
Fitzgerald, 457 U.S. 800, 817 (1982). In the Plaintiffs
case the officer not only falsified the evidence based on a
witness’s perjury (he has his own eyes and could have
seen the damages were not on the left side of the
Plaintiffs

car

but

on

the

right

side)

but

also

intentionally omitted in his report facts well known to
him (the other person involved in the accident had a
passenger and a baby in her car, facts completely
omitted in the officer’s report). These facts point out to
an intentional fraud not a simple negligence on the
officer’s part. That the witness committed perjury is
another felony committed in this case and the question
is how that can be proven and how that person should
be investigated and prosecuted!
Since that federal Statute authorizes not only actual but
Appendix U, page 4

also punitive damages, the Plaintiff request with this
Motion award of punitive damages to be awarded in the
amount determined by the Court.
CONCLUSION
The Defendant, Dover Police Officer Dale Boney, is
liable for actual and punitive damages under provisions
of 42 U.S.C. § 19,83 for deprivation of rights under color
of law by denying the Plaintiffs basic constitutional
right of ‘due process’ by intentionally falsifying evidence
in his Police Report of the parking, accident and pinning
the blame for the collision on the Plaintiff although she
was a victim not a perpetrator of the accident and thus
denying her right for damages cause to her car. Plaintiff
therefore asks the Court of award her not only the
actual damages specified in her original Complaint but
also punitive damages specifically authorized under the
Statute in the amount determined by the Court
depending on the gravity of the officers violations (i.e.,
Appendix U, page 5

I

intentional fraud).
Respectfully submitted on this Twenty Ninth Day of
December 2015.
For the Plaintiff, /s/Nina Shahin
NINA SHAHIN
103 Shinnecock Rd.
Dover, DE 19904
(302) 526-2152

Appendix U, page 6

IN THE COURT OF COMMON PLEAS FOR THE
STATE OF DELAWARE IN AND FOR KENT
COUNTY
NINA SHAHIN,

)
)

Plaintiff,

)

v.

)

DOVER POLICE OFFICER
DALE BONEY, BADGE #
10216, AND STATE FARM
MUTUAL AUTOMOBILE
INSURANCE COMPANY,
.................

,

) C.A. No.:2014-CU
) 514000682
)
)
)
>
)

, .

i;

Defendants. )
PLAINTIFFS OBJECTIONS TO THE
DEFENDANT. DOVER POLICE OFFICER. DALE
BONEY’S MOTION TO DISMISS
The Plaintiff, Nina Shahin, thereby files Plaintiffs
Objections to the Defendant, Dover Police Officer Dale
Boney’s Motion to Dismiss her Complaint against him
on the following grounds:
1. In the first paragraph of the Motion the Defendant
mentioned that the Plaintiff is a “frequent pro se
litigant” although no comments or interpretations were
Appendix V, page 1

presented to illuminate that fact or clarify the purpose
of that reference or the Defendant’s exact intent which
could not be possibly friendly or positive to the Plaintiff.
Since the Defendant failed to declare his intentions the
Plaintiff would provide her own explanations and
interpretations and especially very detailed ones related
to facts of her illegal arrest, illegal incarceration,
beatings and torture in prison and other facts of
systematic harassment and intimidation by officers of
Dover Police Department.

Plaintiffs other cases are

related to her (and sometimes her husband’s) attempts
to enforce

federal mostly antidiscrimination laws:

Expedited Funds Availability Act (Regulation CC). Title
VII (Discrimination in Employment), Title VIII (Fair
Housing Act), Truth in Lending Act( TILA or Regulation
Z), Real Estate Settlement Procedure Act (RESPA or
Regulation X) and others.

Plaintiff painstakingly

collects documentary evidence (documents of judicial
Appendix V, page 2

/.

and/or administrative process as well as articles in local
publications) to prove complete corruption of Delaware
courts (federal and state) where the poor, minorities, pro
se litigants cannot enforce any laws or win a case
regardless of underlying material facts and standards of
applicable and controlling law and procedure. The
corruption is so deep and wide that it. can . bp
demonstrated on just one example: the heir of both
DuPont family and a famous Wilmington attorney
(Robert H. Richards IV) charged with sexual assault of
his infant daughter was sentenced to psychiatric
treatment at Massachusetts clinic which he skipped 1
without any penalties or punishment but a foreign born
woman was arrested, incarcerated, beaten and tortured
in prison for asking a bank a letter to which she was
entitled as a matter of law. The poor, minorities, pro se

1 DuPont Heir Never Got Ordered Care, The News Journal,
04/09/2014.

Appendix V, page 3

f

Litigants cannot enforce any of the antidiscrimination
laws due to abuse of judicial discretion, collusion
between

judges

systematic

and

judicial

professional

harassment

attorneys,

through

and

complete

disregard and falsifications of standards of applicable
and controlling law and procedure. Plaintiff will file a
formal human rights violations complaint with the UN
High Commissioner on Human Rights on the basis of all
that collected material.

In particular, the Plaintiff

collects information related to a systematic pattern of
Dover

Police

officers’

harassment,

intimidation,

including her illegal arrest and incarceration in August
of 2012 and this case is part of three instances she
would use in her complaint. On August 10, 2012, the
Plaintiff visited a local PNC bank office on a special
invitation of that office assistant manager and re­
quested a letter about closing costs related to her and
her husband’s home equity application which the PNC
Appendix V, page 4

bank screwed up badly. That letter with closing costs
the PNC bank was supposed to provide three weeks
earlier in accordance with standards of federal laws:
Truth in Lending Act

(TILA)

and Real Estate

Settlement Procedure Act (RESPA). The day before (i.e.,
August 9,

2012) the

mishandling, of their

Plaintiffs complaint
application

about

filed, with

the

Comptroller of the Currency had been transferred to the
If:.'

\ •

• 1

r •'

•••' ■'

‘

i

■

*

newly created Consumer Financial Protection Bureau,
fact known to the assistant manager.

The assistant

manager refused to issue the requested letter and called
police who without much of discussion arrested the
Plaintiff which in view of the circumstances could only
be interpreted as an act of intentional harassment and
intimidation for an attempt to exercise her rights. At
Dover police station when the Plaintiff was taken for
fingerprinting she collapsed to the floor because of a
sudden and unexpected drainage of her strength (her
Appendix V, page 5

\

knees gave in) and was taken to Kent General Hospital
where medical personnel in collusion with Dover police
officers attempted to give her illegal drugs so that she
would test positive for the use of illegal drugs. Since the
Plaintiff was not told what drugs were those pills and
why did she need them she refused to take them. Nurse
who attempted to administer those drugs became very
angry, immediately called police officers who pulled the
Plaintiff out of the ER calling her “an ass hole” and
“piece of shit,” threw her into their car, and slammed
the door on her toes. At that point the Plaintiff lost her
consciousness.

She regained her consciousness from a

terrible pain on the left side of her upper back on the
way

to

Delores

Baylor

correctional

facility

in

Wilmington, DE. Although she was unable to move, she
was ordered to get out and when she could not was
"\

threatened to be sprayed. Threat did not help. Plaintiff
was dragged out of the case and dropped on the floor
Appendix V, page 6

V

where she spent the next from 12 to 16 hours. When
she did not come home that night her husband called
Dover Police and Kent General Hospital and both places
denied that the Plaintiff had ever been there. Only when
he personally came to Kent General Hospital, the
security on duty there went through the hospital data
base . and informed him .th^it the Plaintiff had been
arrested, incarcerated and the bail was set at $4,500
($500 for fabricated, trespassing and $2,000’each for
fabricated ‘resisting arrest’
fingerprinting’

charges).2

and ‘refusing to take

The

Plaintiffs

husband

immediately paid that bail with his credit card which
occurred

between

12:00

midnight

and

1:00

am.

Apparently, only after payment of the bail the Plaintiff
was pulled out of the floor, processed, and forced to take
shower. The nurse in the infirmary refused to house her

2 Murderers in Delaware are getting bail set at $1,000 which
demonstrated how intentional discrimination and abuse of judicial
discretion was in the Plaintiffs case.

Appendix V, page 7

)

(

there apparently because of the already paid bail which
should have triggered the Plaintiffs immediate release.
Prison administration could not put her to a regular cell
either because of her physical condition or the paid bail.
Instead the Plaintiff was stripped of the warm prison
clothes, dressed in the knee length sleeveless dress
made of padded synthetic material that not hold any
body warmth and wheel chaired to a PCO unit where
she was left on a dirty plastic mattress and nothing else.
While undressing her one of the guards pounded
Plaintiffs arthritic and scoliotic back with her fists
claiming that she was a “good actress,” claim that
echoed the one made by the arresting Dover police office
who brought her to prison (Justin Z. Richey) who
declared

that

the

Kent

General

Hospital

had

determined that the Plaintiff “faked everything.” The
Plaintiff spent in this PCO unit another two nights and
two days freezing to a degree that her titanium hip imAppendix V, page 8

plant was freezing in her body.3 She took off her dress
and wrapped it around her body trying not to move to
preserve her body warmth.

Spending two nights and

two days in such conditions made her a complete invalid
(her arthritis in bones and joins caused degeneration to
a degree that she needed another surgery which she
could not afford because of lack of fupds). On Sunday,
August 12, 2012, late afternoon the Plaintiff was finally
wheel chaired to Wilmington Hospital for ‘external
evaluation.

From there she was moved to Christiana

hospital where a forensic nurse made 47 pictures of her
injuries all over her body. (Copies of those photos are
presented in Exhibit A),

The Plaintiffs husband

during all that time was lied to by prison administration
who claimed that the bail papers had never been
received.

When the Plaintiffs husband, who is a full

professor of Mathematics at Delaware State University,
finally arrived to Delores Baylor correctional facility on
Appendix V, page 9

V

<

Sunday afternoon of August 12, 2012, the same lie was
repeated to his face although the Plaintiff was no longer
in the prison.

While there he received a call from a

physician at Wilmington hospital and was redirected to
Christiana hospital where he picked up the wheel
chaired Plaintiff.

The Plaintiffs civil rights lawsuit

against Dover Police, arresting officer, prison personnel
and others involved in her illegal arrest and incar­
ceration was dismissed because the Motion to Proceed in
Forma Pauperis was denied to the Plaintiff and she had
no money to pay for the filing fee. Plaintiff could not
walk for another four months and only after extensive
chiropractor therapy she started to walk without cane
but not for long. In January of 2013 because of nervous
breakdown related to illegal arrest and illegal incarce­
ration she had shingles that threw her back to pain and
3 According to Geneva Convention ‘torture’ is defined as “the act of
deliberately inflicting sever physical or psychological pain and
possibly injury to a person usually to one who is physically
restrained or otherwise under the torturer’s control or custody and
unable to defend against what is being done to them.”

Appendix V, page 10

incapacitation.

She finally had a second hip replace­

ment surgery on September 16, 2014.

This case is a

second case of Dover Police intentional falsification of
evidence (fraud), harassment, and intimidation with
illegal citation for violation she did not commit.

The

third case when a Dover police office came to the
Plaintiffs house and threatened her with arrest will be
heard in this Court on October 7, 2014. This latter case
affected her husband who is a diabetic with high blood
pressure more that the Plaintiff who did not expect
anything other than intimidation and harassment from
Dover Police.

Plaintiffs husband cancelled his trip to

Austria and the following Sunday both of them came to
Dover police station so that the Plaintiff could be
. arrested and her husband could control the bail process.
Both of them came at 11:00 am, 5:00 pm, 7:00 pm and
the officer (Katelyn Spoon-Roth)
finally arrived to her job close to 12:00 midnight and by
Appendix V, page 11

*
V

1:00 am the Plaintiffs case was presented to a Justice of
the Peace Judge. Plaintiffs husband rebooked his flight
to Austria the following Monday and the Delaware State
University forked additional $ 700 for the change of his
flight with no compensation for his high blood pressure,
high glucose levels all these days and harassment at
Dover police station where the Plaintiff and her hus­
band were given the wrong information again and again
about the officer’s initial time of the start of her duty.
2. In this particular case the Defendant, Dale Boney,
officer of the Dover Police Department intentionally and
fraudulently falsified the evidence related to the
Plaintiffs car damages and issued the Plaintiff with a
citation for violation she did not commit which is
another

example

of intentional

harassment

and

intimidation of the Plaintiff by the Dover police.
3. Plaintiff tried to resolve the issue with the City of
Dover Human Relation Commission by filing complaint
Appendix V, page 12

m

against the officer. The answer of the City of Dover was
quite specific “go and sue” (copy of the City of Dover
response is attached in Exhibit B).
4-5. In those paragraphs the Defendant claimed that he
is “immune” from any civil claims “but only for those
acts which were not in the scope of employment or
which, were performed with wanton negligence or
willful and malicious intent.” (Emphasis is added by
the Plaintiff). Intentional and fraudulent falsification of
the evidence committed by the Defendant with intentional to illegally harass qnd intimidate the Plaintiff
falls under the definition of “wanton negligence and
willful and malicious intent” and does not shield the
officer from personal responsibility for his illegal mali­
cious and fraudulent actions.
6. Officer’s falsification of evidence with reference to
“eye witness” (who did not show up in court) caused the
other Defendant, State Farm Mutual Automobile CornAppendix V, page 13

i

V

pany, to deny Plaintiffs claim for damages by parallel
falsifications,

insinuations,

and an outright fraud

presented to the Delaware Insurance Commissioner (it
presented evidence of damages related to the opposing
driver’s car and not the Plaintiffs see copy of the State
Farm’s last response to the Delaware State Commissi­
oner in Exhibit C) which raises a question of whether
the State Farm actually understood the basic issue of
the Plaintiffs case (sic!)
CONCLUSION
The Defendant’s attorney in the Motion to Dismiss the
Plaintiffs Complaint failed to prove by preponderance of
evidence that the Plaintiffs complaint against the
officer, Dale Boney, should be dismissed, and it should
therefore be denied.
Respectfully submitted on this twenty Third Day of
September 2014.
For the Plaintiff,

Is/ Nina Shahin
Nina Shahin
Appendix V, page 14

\

■ ?

PRESIDENT WILLIAM BRADY OF THE DELAWARE
BAR ASSOCIATION THINKS MORE THATN
2000NEW MEMBERS OF CITIZENS FOR A PRO­
BUSINESS DELAWARE DON’T KNOW THE FACTS.
(Picture below is of Mr. William P. Brady speaking to a
crowd of people)
(Below the picture:)
“WE WOULD HOPE AND EXPECT THAT ONCE
BECOME AWARE OF THE TRUE FACTS OF THE
MATTER, THEY WILL DISACCIATE THEMSELVES
FROM THE CITIZENS GROUP.”
•
William'P’. Brady, President of the Delaware Bar Association

FACT:
FACT:

FACT:

DELAWARE’S SUPREME COURT
HAS NEVER HAD AN AFRICAN
AMERICAN JUSTICE
DELAWARE RECEIVED AN “F’
FROM THE CENTER FOR PUBLIC
INTEGRITY
IN
JUDICIAL
ACCOUNTABILITY
' NONE • OF-" THE STATEMENT
MADE BY WILLIAM BRADY
ADDRESS
THE
LACK
OF
TRANSPARENCY, ACCOUNTABI­
LITY AND DIVERSITY IN THE
DELAWARE COURT.

Appendix X, page 1

A

